<html>
<title> - NOMINATION OF SEAN O'KEEFE TO BE ADMINISTRATOR OF THE NATIONAL AERONAUTICS AND SPACE ADMINISTRATION</title>
<body><pre>[Senate Hearing 107-1030]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1030
 
                    NOMINATION OF SEAN O'KEEFE TO BE
                     ADMINISTRATOR OF THE NATIONAL
                  AERONAUTICS AND SPACE ADMINISTRATION

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 7, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



87-606              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida

               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                  Mark Buse, Republican Staff Director
               Jeanne Bumpus, Republican General Counsel


                            C O N T E N T S

                              ----------                              

                                                                   Page
Hearing held on December 7, 2001.................................     1
Statement of Senator Allen.......................................    14
Statement of Senator Burns.......................................    13
Statement of Senator Dorgan......................................     6
Statement of Senator Hutchison...................................     6
Statement of Senator Lott........................................     8
Statement of Senator McCain......................................     3
    Prepared statement...........................................     5
Statement of Senator Nelson......................................    11
Statement of Senator Stevens.....................................     1
Statement of Senator Wyden.......................................     1

                               Witnesses

Boehlert, Hon. Sherwood L., U.S. Representative from New York....     9
    Prepared statement...........................................    10
O'Keefe, Sean, Deputy Director of the Office of Management and 
  Budget, nominee to be Administrator of the National Aeronautics 
  and Space Administration.......................................    17
    Prepared statement...........................................    18
    Biographical information.....................................    20

                                Appendix

Brownback, Hon. Sam, U.S. Senator from Kansas, prepared statement    59
Hollings, Hon. Ernest F., U.S. Senator from South Carolina, 
  prepared statement.............................................    59
Response to written questions submitted to Sean O'Keefe by:
    Hon. Trent Lott..............................................    60
    Hon. John McCain.............................................    61


                    NOMINATION OF SEAN O'KEEFE TO BE
                     ADMINISTRATOR OF THE NATIONAL
                  AERONAUTICS AND SPACE ADMINISTRATION

                              ----------                              


                        FRIDAY, DECEMBER 7, 2001

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m., in 
room 
SR-253, Russell Senate Office Building, Hon. Ron Wyden, 
presiding.

             OPENING STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. The hearing will come to order. This is a 
hearing of the Full Committee this morning. We will excuse our 
Chairman, Senator Hollings, this morning. His prepared 
statement will be made part of the record.
    I will have an opening statement, but first I would like to 
recognize our friend and colleague from Alaska.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Thank you very much, Mr. Chairman. I am 
going to be opening the floor soon with my amendment, but I 
come to welcome to the Committee once again a former Chief of 
Staff of the Defense Appropriations Subcommittee, former 
Secretary of Navy, currently at the OMB and other times 
Professor at Syracuse University. Sean O'Keefe is a man of 
great honor, great talent, great ability and he is the right 
man for NASA at this time. I am delighted to have an 
opportunity to be here and recommend him to the Committee for 
quick confirmation. Thank you.
    Senator Wyden. Well, I thank my colleague and it is a plus 
for this Committee that Senator Stevens and Mr. O'Keefe go way 
back. Mr. O'Keefe, we welcome you. This morning, the Committee 
is going to consider the nomination of Deputy Director Sean 
O'Keefe of the Office of Management and Budget, to be the 
Administrator of the National Aeronautics and Space 
Administration. NASA is charged to undertake research regarding 
flight activities in aeronautics and space. The Subcommittee on 
Science, Technology, and Space, which I chair, has oversight 
responsibility of NASA. NASA, with a budget of over $15 
billion, is the largest program within the Subcommittee's 
jurisdiction. I look forward to working with Mr. O'Keefe on 
many of the issues facing the agency. Mr. O'Keefe will bring to 
the job a reputation of a tough fiscal watchdog.
    His skills are especially needed at NASA right now. Mr. 
O'Keefe's watch will begin during the period of exceptionally 
tough choices for our Nation's space program. Costs for the 
horrendously mismanaged Space Station have shot out of control 
while its capabilities have shrunk. Unless Mr. O'Keefe can get 
the International Space Station program back in the box--and 
quickly--the Space Station will use not only allotted 
resources, but will devour the dollars needed for NASA's other 
high-priority missions.
    The fiscal bottom line is clear. There will not be a 
massive infusion of new funds for NASA during Mr. O'Keefe's 
tenure. Mr. O'Keefe's principal challenge will be to refocus 
the agency and existing Federal funds for carrying out NASA's 
original goals--research, development, and scientific 
exploration of space. Specifically, I want Mr. O'Keefe to 
return NASA to a science and research driven agenda so that our 
dedicated scientists and engineers can find the breakthrough 
technologies that have been NASA at its best.
    I want to be clear. I am not interested in Mr. O'Keefe 
coming in and being a fiscal watchdog to narrow NASA's scope, 
but so NASA can enlarge its scientific visions. The chief value 
of sound financial management is to ensure the agency has the 
resources to fulfill its mission. I want Mr. O'Keefe to cut the 
massive overhead that keeps us from the stars.
    There will be opposition to this approach. As chair of this 
subcommittee, I intend to work closely with my colleagues from 
Congress, those in the Administration with the country's 
science leadership and find a way to make this crucial 
transition. It is absolutely central to the bright future we 
all want for NASA.
    As Mr. O'Keefe begins to return NASA's resources to its 
origins, I believe that safety must continue to be the No. 1 
priority. I also believe that ensuring safety, shortening 
timelines, and introducing new technologies do not have to be 
mutually exclusive. You cannot convince me that NASA doesn't 
have the talent to come up with new ways of doing things that 
are also smarter ways of doing things.
    Cutting fat doesn't mean cutting corners on safety. Where 
there are dollars spent on layers of bureaucracy or other 
areas, the fat is not protective padding. The fat is what's 
keeping NASA's missions from reaching their full potential. For 
example, with respect to the International Space Station, in 
1993 when the current design was adopted, NASA said the Space 
Station would cost $17.4 billion for construction, no more than 
$2.1 billion per year.
    Earlier this year, NASA admitted the cost of completing the 
Space Station had grown to roughly $30 billion, almost $5 
billion above cost caps imposed by the Congress. Cost overruns 
for the Space Station reduced a number of astronauts able to 
work there. The station is being redesigned and dubbed U.S. 
core complete, but it is far from the complete scientific 
platform originally envisioned.
    NASA scrapped plans for the crew return vehicle, 
application module and the propulsion module. Even with those 
cutbacks, NASA will still have to find ways to make management 
more efficient and do a better job of estimating costs before 
an even scaled-back version of the program. NASA charged a task 
force to conduct an independent external review for the 
program. It recently published a recommendation. We are going 
to discuss them this morning with Mr. O'Keefe.
    The challenge of the Space Station is not enough. NASA also 
faces the difficult challenge of funding necessary upgrades to 
the fleet of Space Shuttles. The subcommittee already held a 
hearing on this topic. These upgrades have become increasingly 
important as the life expectancy of the Space Shuttle has been 
stunted. Mr. O'Keefe is going to be faced with tough choices 
that are certainly not going to always be possible, but it is 
essential that he choose well.
    It is not simply that NASA produces the technology to drive 
our Nation's economy from aerospace and electronics. The future 
of the human race in space rests on a renewing of NASA's 
purpose. The alternative is dire. Continuing on the current 
path will surely bind NASA to Earth and its mission along with 
it.
    Mr. O'Keefe needs this Committee's support. I look forward 
to his testimony and I want to make it clear that we anticipate 
swift confirmation. For those who are keeping track, this would 
be his second confirmation in less than a year, fourth overall. 
We are going to have some introductions in a moment, Mr. 
O'Keefe, but first I want to recognize my colleague, the 
distinguished Senator from Arizona.

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Thank you, Mr. Chairman. I want to thank 
you and Chairman Hollings for calling this hearing today. Mr. 
O'Keefe's nomination comes at an important juncture for the 
National Aeronautics and Space Administration. I appreciate 
your willingness to work with myself and others on the 
Committee to give consideration to this important nomination in 
a very timely fashion. I welcome you, Mr. O'Keefe, and your 
family who are with you here today.
    As we all know, Mr. O'Keefe is currently the Deputy 
Director of OMB and he has a history of taking on major 
challenges. He took over as Secretary of the Navy at a very 
demanding and stressful time for that branch of our services.
    The challenge of leading NASA appears to be equally 
demanding. The agency is currently at a major point in its 
history. When I was the Chairman of this Committee, I was 
amazed as much as anyone by the many reports on management 
problems at the agency.
    At times it appeared as if the agency was ``bleeding 
billions'' on major cost overruns. There are many who say that 
NASA has come to stand for ``Never A Straight Answer.'' Based 
upon its interface with the Commerce Committee, I say there is, 
unfortunately, some truth to it.
    I have written to the agency about incomplete and 
inaccurate information provided to the Committee. The important 
point to be realized today is for NASA to understand that 
accurate and complete information is critical for the Congress 
to be able to develop effective legislation. They, of any 
agency, should understand the virtues of sound decisionmaking 
processes.
    The recent Young Report, which I hope all Members of the 
Committee will read, has highlighted several management issues 
on the most visible program at NASA, the International Space 
Station. I'd like to mention just a few of the findings from 
the Report. The program's technical achievements to date are 
extraordinary. The existing program plan is not credible, 
according to the Young Commission.
    Existing deficiencies in management structure, 
institutional culture, cost estimating, and program control 
must be acknowledged and corrected in order for the program to 
move forward. Cost estimates for the U.S.-funded enhancements 
are not sufficiently developed to assess credibility, and there 
are opportunities to maximize research on the core station 
program with modest cost impact.
    I think these findings do a good job of describing the 
current condition of the program. Based on this Committee's 
work over the past years, I feel that many of these findings 
would also be applicable to many other programs at NASA. The 
Young Report cites the need for major decisions to be made. 
Delaying these decisions will only cost the taxpayers more 
money. I believe that we, the Congress, and the Administration, 
need to make a conscientious decision on the future of the 
Space Station. I am willing to work with you and other Members 
of the Committee and the Administration to develop a plan 
within the next 120 days for the future of the Station.
    I propose that Mr. O'Keefe lead this effort. The choice is 
whether we want to continue spending $100 billion of taxpayer 
funds and receive 20 hours per week of research in return, or 
do we want to invest additional funds and get a more functional 
research facility in return. If the latter is the preference, 
we will require additional program controls. Finding the 
funding for additional work won't be easy. Priorities must be 
established and followed.
    Members of this Committee are concerned about the other 
areas at NASA as well. Space science, earth science, space 
transportation and aeronautics are all important to NASA, as 
well as the Nation. After the events of September 11th, the 
Nation is in need of immediate advancements in the aeronautical 
science arena. This is an opportunity for NASA to really put 
its research on display before the world. I know the Science, 
Technology, and Space Subcommittee is considering additional 
hearings in this area, and I applaud them for doing so.
    A coherent vision for the agency is also important. I look 
forward to working with this outstanding nominee to define and 
refine the agency's vision, however, we also know that vision 
without a strategy is just an illusion. Again, I look forward 
to working with the nominee to develop the appropriate strategy 
for this provision.
    In light of the problems and concerns I have just mentioned 
and many others, I feel that Mr. O'Keefe makes an excellent 
nominee as an excellent Administrator of NASA. I think he has 
the right skills and capabilities at the right time to fully 
restore the meaning of NASA. I fully support this nomination.
    Thank you, Mr. Chairman, for holding this hearing. I look 
forward to quick action on this nominee.
    [The prepared statement of Senator McCain follows:]

               Prepared Statement of Senator John McCain

    Mr. Chairman, I want to thank you and Chairman Hollings for calling 
this hearing today. Mr. O'Keefe's nomination comes at an important 
juncture for the National Aeronautics and Space Administration (NASA). 
I appreciate your willingness to work with myself and others on the 
Committee to give consideration to this important nomination in such a 
timely manner.
    Mr. O'Keefe, currently the Deputy Director of OMB, has a history of 
taking on major challenges. He took over as Secretary of the Navy at a 
very demanding and stressful time for that branch of our services. The 
challenge of leading NASA appears to be equally demanding. The agency 
is currently at a major point in its history.
    When I was Chairman of this Committee, I was amazed as much as 
anyone by the many reports on the management problems at the agency. At 
times, it appeared as if the agency was ``bleeding billions'' on major 
cost overruns.
    There are many who say that NASA has come to stand for ``Never A 
Straight Answer.'' Based upon on its interface with the Commerce 
Committee, I say there is, unfortunately, some truth to it. I have 
written to the agency about incomplete and inaccurate information 
provided to the Committee. I think the important point to be realized 
here today is for NASA to understand that accurate and complete 
information is critical for the Congress to be able to develop 
effective legislation. They, of any agency, should understand the 
virtues of good and sound information in the decisionmaking process.
    The recent Young Report has highlighted several management issues 
on the most visible program at NASA, the International Space Station. I 
would like to mention just a few of the findings from the report:
    <bullet> The program's technical achievements to date are 
extraordinary;
    <bullet> The existing program plan is not credible;
    <bullet> Existing deficiencies in management structure, 
institutional culture, cost estimating, and program control must be 
acknowledged and corrected for the program to move forward;
    <bullet> Cost estimates for the U.S.-funded enhancements are not 
sufficiently developed to assess credibility; and
    <bullet> There are opportunities to maximize research on the core 
station program with modest cost impact.
    These findings do a good job of describing the current condition of 
the program. Mr. Chairman, based on this Committee's work over the past 
years, I feel that many of these findings would also be applicable to 
many other programs at NASA.
    The Young Report cites the need for major decisions to be made. 
Delaying these decisions will only cost the taxpayers more money. Mr. 
Chairman, I believe that we, the Congress, and the Administration need 
to make a conscientious decision on the future of the Space Station. I 
am willing to work with you and the other Members of this Committee and 
the Administration to develop a plan within the next 120 days for the 
future of the Station.
    I propose that Mr. O'Keefe, if confirmed, lead this effort. The 
choice is whether we want to continue spending $100 billion of 
taxpayers funds and receive 20 hours per week of research in return or 
do we want to invest additional funds and a get more functional 
research facility in return.
    If the latter is the preference, we will require additional program 
controls. Finding the funding for this additional work will not be 
easy. Priorities must be established and followed.
    Members of this Committee are concerned about the other areas at 
NASA as well. Space science, earth science, space transportation, and 
aeronautics are all important to NASA, as well as the Nation.
    After the events of September 11, the Nation is in immediate need 
of advancements in the aeronautical science arena. This is an 
opportunity for NASA to really put its research on display before the 
world. I know the Science, Technology, and Space Subcommittee is 
considering additional hearings in this area and I applaud them for 
doing so.
    A coherent vision for the agency is also important. I look forward 
to working with this outstanding nominee to define and refine the 
agency's vision. However, we also know that vision without a strategy 
is just an illusion. Again, I look forward to working with the nominee 
to develop the appropriate strategy for that new vision.
    Mr. Chairman, in light of the problems and concerns that I have 
just mentioned and many others, I feel that Mr. O'Keefe makes an 
excellent nominee as the next Administrator of NASA. I think that he 
has the right skills and capabilities at the right time to fully 
restore the meaning of NASA as the National Aeronautics and Space 
Administration. I fully support this nomination.
    Again, thank you Mr. Chairman for holding this hearing and I look 
forward to working you and Chairman Hollings in moving this nomination.

    Senator Wyden. I thank the Senator from Arizona.

                STATEMENT OF HON. BYRON DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, thank you very much. I am 
pleased to support Mr. O'Keefe. I think the President has 
chosen well. I think, as some have suggested, NASA faces some 
very unique challenges at this moment, and Mr. O'Keefe's 
particular talent fits well with the opportunity to meet those 
challenges. But let me say despite all of these issues that 
have been raised, and I think they are appropriately raised, I 
deeply admire the men and women of NASA who are America's 
finest explorers of our universe. I have long believed that a 
society that stops exploring is a society that stops 
progressing.
    All of us very much want NASA to succeed. This is an 
important and exciting set of missions on behalf of our 
country, and I believe all of us want success for NASA, so Mr. 
O'Keefe is offered to us by President Bush as his nominee.
    Mr. O'Keefe and I met yesterday, and I am very pleased to 
support this nomination. I think the President has chosen well.
    Senator Wyden. Senator Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman, and I thank you 
and Chairman Hollings and Senator McCain for having this 
hearing early. I think it is so important that we have firm 
leadership at NASA for the long-term future. I am supporting 
Mr. O'Keefe. He came to see me right after his nomination, 
which I appreciate.
    I have to say, I have reservations, not because of anything 
particular with you, but because I am concerned about the OMB 
actions toward NASA, since the first of this year. I think OMB 
has focused on budget cutting and I don't think the leader of 
NASA can be just a budget cutter. I think the leader of NASA 
must look at the big picture. I think the leader of NASA must 
change the problems at NASA which are budget related, but they 
are leadership related as well, and we have been in limbo for 
too long, and I want to have a firm leader. For that reason, I 
am going to ask for confirmation before we leave in December so 
that you can take firm control and hopefully prove that you 
have a vision for NASA that will be a long-term vision.
    Most particularly, Mr. O'Keefe and I discussed the Young 
Report, and Mr. O'Keefe suggested that this would be the 
backbone of his beginning to grapple with the problems at NASA. 
In the Young Report, I thought the most important red flag was 
the issue of the core complete 3-person crew that would be in 
the Space Station, and whether that would be a permanent 
situation or whether the goal would be to achieve core complete 
3-person crew and then move beyond that to the 7-person crew.
    It is said in the Young Report, and confirmed by others 
that I consulted, that it takes about 2\1/2\ crew members just 
to operate the Space Station, thus leaving only half a person 
worth of man hours to conduct research. If we expend all of the 
station efforts on operating the station, I think we will lose 
the forest among the trees. We will lose the big picture and we 
will lose what is uniquely NASA's mission, which is to go 
beyond operating and have the capability to do the innovative 
research that only the Space Station can do, such as with the 
microgravity conditions. So I would like to ask Mr. O'Keefe if 
he is committed to moving beyond core complete into the 
capability to have more scientists be able to conduct the 
research.
    I think this also has an impact on our international 
relations. Our international partners are not interested in 
just operating a station. They are interested in the research 
that they are going to get for their investment. I think it 
would otherwise be an abrogation of our agreements. In spirit 
with our international partners, we should seek to learn enough 
that is new and creative in the medical field, as well as the 
scientific field, that we will all be able to then create the 
industries and the improvements in quality of life that that 
research will bring.
    I don't think you can precisely budget a war, and I don't 
think you can precisely budget innovative research. By its 
nature, when you are pushing the envelope, you are going to 
have mistakes. You are going to have miscalculations, you are 
going to learn from those and create your final product. So I 
am going to hope that there is more than a budget cutting 
mentality and a vision along with a common sense budget 
mentality.
    I have great faith in the President of the United States' 
commitment to NASA. I believe that he believes, along with Vice 
President Cheney, that NASA is one of the economic engines of 
America. It is what has given us the leadership in the world 
for creative and very valuable satellite information and 
quality of life improvements, and I think we can do more if you 
have the capability to produce the vision that will assure we 
stay in the forefront.
    So I will be your biggest booster if I see that in you. You 
have said that the Young Report will be your basic guideline. I 
think the Young Report is quite sound, and if you can create 
the infrastructure that will allow us to go forward with that 
vision, then NASA will get its feet back on the ground and we 
will have the same kind of creativity and spirit at NASA that 
has inspired the American people to be supportive and has 
created a basis for new scientists and an inspiration to the 
young people of our country that science is a very important 
component of entrepreneurship and creativity in our country.
    I do support the nomination. I will be working with you 
hand and glove. I want you to produce, and I want you to show 
more than an OMB mentality. I thank you. I hope that we can 
give him the opportunity to be the leader at a very early 
chance, and I think before we leave, we should confirm this 
nominee so that he can take the next 2 months when we are not 
in session to put his team together and begin to offer us the 
plans that would show that there is a new day and a new vision 
and a new spirit for NASA.
    Senator Wyden. I thank my colleague.
    Here's how we are going to proceed at this point, because 
we have a vote on the floor of the Senate. We have the 
distinguished Minority leader here with us, Senator Lott and 
his schedule is very tight. At this point, I want to recognize 
Senator Lott. We will then break for the vote. When we return, 
we will recognize Senator Nelson, who was here next, and then 
Senator Allen and Senator Burns.
    Senator Lott, welcome.

                 STATEMENT OF HON. TRENT LOTT, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. Thank you. I thank my colleagues for giving 
me this courtesy. I just wanted to be here and congratulate 
Sean O'Keefe on being nominated for NASA Administrator. I think 
NASA has an important role for our country, but I think NASA 
has been wandering around for the last several years without a 
real vision for the future without the type of leadership 
really needed and frankly, in many instances, in certain 
programs without sufficient money to do the job properly. Then 
in other areas, Congress has forced money on NASA for programs 
that probably are not of sufficient value. So I hope that your 
experience at the Department of Management and Budget, and your 
knowledge of Congress will help you in trying to get NASA 
headed in the right direction.
    I have felt like in recent years that commitments were made 
by NASA that weren't kept, and that particularly unnerves me 
when I have the feel that the leadership of an agency is not 
being square with you or honest with you. And I hope that as 
certain people have said why you need budget responsibility and 
your strengths, that you are not going there to just phase it 
out or phase it down. If it is a core agency, focus on getting 
the work done where it needs to be done.
    If you are going to NASA just for a BRACC type arrangement, 
you are going to meet a lot of resistance from a lot of us here 
in this room. I personally have been supportive of NASA over 
the years and disappointed at various times, but it is doing a 
lot of innovative things. Vehicle manufacturing has a lot of 
potential that will be useful for NASA, but also in the 
commercial area.
    One area that I am particularly interested in is the 
Landsat data continuity mission, which I think will yield a lot 
of that, and it will be useful in the private sector. Once 
again, it looks to me like NASA is moving toward NASA owning a 
single satellite and minimizing the value of this program, as 
opposed to using the commercial, the private area to get the 
maximum bang for the buck and to make sure that there is 
competition and that this is not just a government-run program.
    You have a lot of private issues to get involved in. Let me 
just ask you that in particular. For years, I have urged NASA, 
by the way, to get the information you have, the technology you 
get, the science that you benefit from into the private sector, 
and that has not been easy.
    We made a little progress in this Landsat area. Are you 
committed to that type approach, as opposed to just a 
government-run and operated program?
    Mr. O'Keefe. Yes, sir. Absolutely.
    Senator Lott. Well, I could ask a whole lot of questions.
    Senator Wyden. We are going to invite you right after the 
break to join us if you can. As you can see, Mr. O'Keefe, our 
colleagues have strong minds on these issues. I am going to 
break for 10 minutes and as you can see, we are going to have a 
vigorous debate this morning and we will start with Mr. 
Boehlert when we return.
    [Recess.]
    Senator Wyden. The hearing will come to order. We are very 
pleased to have Sherry Boehlert here. Please proceed to 
introduce the nominee.

            STATEMENT OF HON. SHERWOOD L. BOEHLERT, 
               U.S. REPRESENTATIVE FROM NEW YORK

    Representative Boehlert. Thank you for the opportunity to 
speak in support of the nomination of Mr. Sean O'Keefe to serve 
as Administrator of the National Aeronautics and Space 
Administration. I hope that the Senate will follow your example 
by moving quickly to confirm this nomination. Sean O'Keefe is a 
dedicated public servant who has never shirked difficult 
challenges.
    He served as Comptroller and Chief Financial Officer of the 
Department of Defense, later as Secretary of the Navy and 
earlier this year was confirmed by the Senate to serve as 
Deputy Director of the Office of Management and Budget. By 
their nature, these are not jobs that earn you many friends, 
but Sean has earned a reputation for being a talented manager, 
fair and open-minded while being absolutely committed to 
ensuring that the agencies he manages are adaptable, efficient 
and mission focused. That is exactly what NASA needs today.
    I have not been impressed by the criticism of Sean 
sometimes offered that Sean is ``a budgeteer, not a 
rocketeer.'' Well, guess what, Sean is not going to NASA to 
personally design rockets. But he knows enough about rockets to 
know that they burn cash, just as assuredly as they burn fuel, 
and that both propellers are finite. It won't hurt NASA to have 
someone who can husband the agency's resources. But the 
criticism is not only less damning than intended, it is also 
unfair.
    Sean is indeed a skilled manager who wants to make sure 
that taxpayer dollars are spent effectively, but that doesn't 
make him any less of a thinker. Like any good manager, Mr. 
O'Keefe is not just interested in how many dollars are spent, 
but on what they are spent for. And I know from our 
conversations that he is excited intellectually by the 
challenge of working to design the space program that will 
increase our understanding of both Earth and outer space, hone 
our Nation's technological edge, and add to our economic 
strength.
    NASA has accomplished that in the past, and it should in 
the future. That is why I, like most Americans, am a strong 
supporter of NASA and the manned and unmanned space programs.
    I remember the thrill of watching the first landing on the 
Moon. My fear and the faith of the crew of Apollo 13 and the 
unforgettable horror of Challenger. I have marvelled at 
unmanned probes to the outer reaches of our solar system and at 
the technological achievement that is represented by the 
International Space Station. Nonetheless, NASA is an agency 
that has lost its way.
    The cost trajectory of its marquee program, the Space 
Station, is unsustainable. This is truer today than ever in 
this time of vanishing surpluses and pressing national security 
and redevelopment needs. We can no longer afford to manage 
large technical programs without any real regard for costs.
    The question, of course, is how we proceed from here.
    At the current rate, we will have pumped more than $30 
billion more into the station, enough money to fund the 
National Science Foundation for almost a decade and we need to 
salvage that investment. We need to complete the core elements 
of the station within the existing budget. We need to ensure 
that the cost of building the Space Station does not eat into 
other programs and prevent NASA from pursuing its other 
scientific missions, and as we do this, we need to look at 
options to ensure that the station is capable of fulfilling its 
primary mission, science.
    The Young Task Force stated that NASA must undergo radical 
reforms if it is to restore credibility to the Space Station 
program. That was a biting critique of the way this program has 
been managed. But it also marked the path, albeit painful, that 
NASA must travel if it is to restore its credibility and 
generate broad public support for future missions. I believe 
that Sean O'Keefe is prepared for this challenge and that he is 
dedicated to restoring NASA to its place as the crown jewel of 
American technology and ingenuity.
    This will require established a new vision of the future of 
the agency and restoring the sense of mission that NASA has 
lacked since the race to put a man on the Moon. It will also 
require management reforms and changes to the way NASA conducts 
its business.
    I am confident that Sean O'Keefe has the toughness, the 
intellect and the dedication to meet this challenge. I urge you 
to favorably report his nomination out and hope that he will be 
confirmed before we leave for the holidays, and may I also 
submit, Mr. Chairman, for the record, a strong letter of 
endorsement from Chairman Dana Rohrabacher of the House 
Subcommittee on Space and Aeronautics.
    [The prepared statement of Hon. Sherwood Boehlert follows:]

         Prepared Statement of Representative Sherwood Boehlert

    Mr. Chairman, Members of the Committee, thank you for the 
opportunity speak in support of the nomination of Mr. Sean O'Keefe to 
serve as Administrator of the National Aeronautics and Space 
Administration. I hope that the Senate will follow your example by 
moving quickly to confirm his nomination.
    Sean O'Keefe is a dedicated public servant who has never shirked 
difficult challenges. He served as Comptroller and Chief Financial 
Officer of the Department of Defense, later as Secretary of the Navy, 
and earlier this year was confirmed by the Senate to serve as Deputy 
Director of the Office of Management and Budget. By their nature, these 
are not jobs that win you many friends. But Sean has earned a 
reputation for being a talented manager--fair and open minded--while 
being absolutely committed to ensuring that the agencies he manages are 
adaptable, efficient and mission focused.
    That is exactly what NASA needs today.
    I have not been impressed by the criticism of Sean--sometimes 
offered sotto voce--that Sean is quote: ``a budgeteer, not a 
rocketeer.'' Well, guess what? Sean is not going to NASA to personally 
design rockets. But he knows enough about rockets to know that they 
burn cash just as assuredly as they burn fuel, and that both 
propellants are finite. It won't hurt NASA to have someone who can 
husband the agency's resources.
    But the criticism is not only less damning than intended; it's also 
unfair. Sean is indeed a skilled manager who wants to make sure that 
taxpayer dollars are spent effectively, but that doesn't make him any 
less of a thinker. Like any good manager, Sean is not just interested 
in how many dollars are spent, but in what they are spent for. And I 
know from our conversations that he is excited intellectually by the 
challenge of working to design a space program that will increase our 
understanding of both Earth and outer space, hone our Nation's 
technological edge, and add to our economic strength.
    NASA has accomplished that in the past, and should in the future. 
That's why I, like most Americans, am a strong supporter of NASA and 
the manned and unmanned space programs. I remember the thrill of 
watching the first landing on the Moon, my fear for the fate of the 
crew of Apollo 13, and the unforgettable horror of Challenger. I have 
marveled at unmanned probes to the outer reaches of our solar system 
and at the technological achievement that is represented by the 
International Space Station.
    Nonetheless, NASA is an agency that has lost its way. The cost 
trajectory of its marquee program--the Space Station--is unsustainable. 
This is truer today than ever in this time of vanishing surpluses and 
pressing national security and redevelopment needs. We can no longer 
afford to manage large technical programs without any real regard for 
cost.
    The question, of course, is how we proceed from here.
    At the current rate, we will have pumped more than $30 billion into 
the station--enough money to fund the National Science Foundation for 
almost a decade--and we need to salvage that investment. We need to 
complete the core elements of the station within the existing budget. 
We need to ensure that the costs of building the Space Station do not 
eat into other programs and prevent NASA from pursuing its other 
scientific missions. And, as we do this, we need to look at options to 
ensure that the station is capable of fulfilling its primary mission--
science.
    The Young Task Force stated that NASA must undergo radical reforms 
if it is to restore credibility to the Space Station program. This was 
a biting critique of the way this program has been managed. But it is 
also marks the path, albeit painful, that NASA must travel if it is to 
restore its credibility and generate broad public support for future 
missions.
    I believe that Sean O'Keefe is prepared for this challenge and that 
he is dedicated to restoring NASA to its place as the crown jewel of 
American technology and ingenuity. This will require establishing a new 
vision of the future of the agency and restoring the sense of mission 
that NASA has lacked since the race to put a man on the Moon. It will 
also require management reforms and changes to the way NASA conducts 
its business.
    I am confident that Sean has the toughness, the intellect, and the 
dedication to meet this challenge. I urge you to favorably report his 
nomination out and hope that he will be confirmed before we leave for 
the holidays.
    Thank you.

    Senator Wyden. Without objection. Chairman Boehlert we very 
much appreciate you coming over here to offer a statement. You 
are always welcome here. Thank you for an excellent statement. 
The nominee is lucky to have you in his corner, and we will 
excuse you at this time.
    Next in the order of appearance, our colleague from 
Florida, Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Congressman Boehlert, it is getting to be a 
regular occasion that you are coming, as you were here 
yesterday and your testimony was eloquent then. Under--I might 
say--withering questioning and you were excellent and you are 
again today.
    Representative Boehlert. Thank you very much, sir.
    Senator Nelson. A pleasure to have you as a friend and a 
colleague.
    Mr. Chairman, I am delighted, I had the privilege of 
talking with Mr. O'Keefe for a couple of hours yesterday, and I 
want to follow up in detail. I would just say by way of 
introductory comments that some of the concerns that Senator 
Hutchison of Texas has expressed, I would echo some of those 
concerns.
    Here we have a little agency that is the symbol of 
America's technological prowess. And so much of the hopes and 
the dreams of America, particularly our youth, are summed up in 
the success of this little agency. And this little agency needs 
a leader, and a strong leader. It needs a leader in the mold of 
Jim Webb, the leader that in the glory days of NASA, took us to 
the Moon and safely to return.
    That is a tall order for Mr. O'Keefe to handle. One of the 
questions that I asked him yesterday that I would like for him 
to expand on today is his vision for NASA. This morning's 
Orlando Sentinel has a story that says that America's European 
partners in the International Space Station Thursday threatened 
to pull out of the deal because of a U.S. proposal to scale 
back the orbiting lab. That just adds another complication to 
the enormous complexity that we have.
    The political component of this is a very important 
component. That is our relationship with other nations because 
we have a common ground, upon which adversaries and former 
enemies can come together as was so aptly demonstrated in the 
Cold War when an American and Soviet spacecraft wound up in 
space and for 9 days those cosmonauts and astronauts did it 
together. Commander Tom Stafford is one of the people that I 
have reached out to in preparation for this hearing today.
    I tell you that story simply to say that there is so much 
riding on the success of this little agency called NASA. And I 
believe that through 3 Administrations, including the present 
one, that they have targeted it for cuts that you just cannot 
keep cutting without paying the price. And when you and I sat 
here at this table in the first week of September for that day-
long hearing on Space Shuttle safety. Of course that is one of 
the concerns that I have, that the cuts are ultimately going to 
end up where the Space Shuttle safety upgrades are not made, 
that they are stretched out, and will cause us to have another 
accident. And if that occurs, and it is always possible. There 
are 1,500 critical parts on Space Shuttle. Any one of which 
fails, that is it.
    And if that happens, then the entire manned space program 
is in jeopardy. Now, there is a lot more at stake here. Because 
after you and I had the hearing, the very next Tuesday, the 
great tragedy occurred, and now we know as we go after these 
terrorists all over the world that we have got to have the 
assets up there for the signal intelligence as well as the 
extremely important human intelligence.
    And Lord forbid that, thank goodness we have got the 
Florida National Guard flying F-15s right now over the Cape, 
and they did so on heightened alert at the time of the launch 2 
days ago. But there are a lot of other pads out there, and were 
we to be denied access to space with expendable booster 
rockets, the only thing left to have assured access to space is 
the Space Shuttle, so that is another reason we have got to 
have this as a functioning reliable system, and all of this is 
going to come in on NASA. NASA's success, in large part, Mr. 
O'Keefe, is going to be on whether or not the leader of NASA 
gives it the leadership in order for its entrepreneurial 
creativity to blossom. And so I am really looking forward to 
this hearing.
    Senator Wyden. I thank my colleague.
    The Senator from Montana.

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. Thank you very much. Senator Nelson, I am in 
awe of your passion for this, but I also know from which it 
comes. We were talking about those years of attempted cuts. 
There was some of us who sort of stood our ground and made sure 
that the money was there. I have a higher opinion of the tenure 
of Dan Goldin, because he has done some things that allowed us 
to build a very positive support base in every community across 
this country.
    We talk about the value of the Space Station. We talk about 
the value of pushing the envelope, and doing those things that 
we can do now. But we also, we tend to forget about the work 
that was done to broaden the support of NASA, because no other 
single entity that this government does so stimulates the 
curiosity of young people, and edges them toward the sciences 
and the mathematics and the physics that it is going to take to 
survive in this world in the days ahead.
    Take into account the financial constraints and other 
limitations, I am very pleased with Mr. Goldin, although the 
public was quick to criticize NASA for failed missions, it was 
the successes and the advancements in the work with students 
that occurred with little fanfare that the media did not pick 
up. Space exploration is risky at best. And it is also an 
unknown business.
    But I would say to a Nation today that once we are lulled 
or numbed into a society that shrinks and does not push the 
envelope and continues to reach out and to explore the unknown, 
then we will be a shrinking society that will fade from the 
face of the earth. 150 NASA launches since 1952, and only 10 on 
record that I have said they were failed missions.
    That is pretty good when you are dealing in the unknown. 
And developing new technologies in order to accomplish the 
mission that is ahead.
    Furthermore, the successes of NASA goes way beyond 
exploration. In my little State of Montana, 950,000 people, 
many of our State University researchers are working on NASA 
with several initiatives so far with very satisfactory results. 
The University of Montana is a NASA partner on Earth 
observations systems or the OES program. The university has 
promoted interests in science, engineering and technologies to 
all ages from the young to the elderly.
    Montana State University and NASA officials recently 
participated in a conference on astrobiology. How did we get 
here and evolve and what is the destiny of life on Earth and 
what it means to us were some of the questions they asked. MSU 
scientists are playing a role in searching for life in extreme 
environments. The Institute of Thermal Biology hosted a meeting 
with key researchers and NASA top management in an overview to 
finding the search for life in those environments.
    Previously unknown life forms have been discovered in 
Yellowstone National Park under very, very difficult 
environments, and also in the gold mines of South Africa desert 
that has never received a drop of water. So NASA's Earth 
sciences program is dedicated to transferring the knowledge 
that we know by looking down on Earth to the resources that can 
be utilized to our Nation's agriculture and food and fiber 
production, to our people who utilize our national renewable 
resources, our land planners, and our health organizations.
    During the meeting I had with Mr. O'Keefe, and I will say 
speaking as a Scottsman, turning this over to an Irishman makes 
me a bit uncomfortable there, but I was very encouraged by his 
desire to reach out to students in educational institutions, 
and that is the key to the NASA success.
    I also want to draw one parallel here. There was a time we 
lagged behind Russia in space technology. And to compare the 
two societies is almost like comparing day and night. The 
Russians took their technology and they would not share it with 
anybody. They stuck it in a safe away from the rest of the 
world and especially to their own people. Where NASA took the 
technology that we developed and set up technology transfer 
centers and got it out into the public sector where every one 
of us in this room, we drive automobiles, our new composites, 
our computer systems was a result of that technology transfer. 
And all of society, we are all benefactors of this program.
    We continue to grow and to lead the world with not only 
this agency, but also all of America in various ways. Our 
friends in Russia are gone. That is a stark difference. But it 
is like Senator Nelson said, this is a spirit of America, and 
we are going to have failures, because we are dealing with 
pushing the envelope, and like I said, nobody has to sell me on 
the merits of this program, because I am a disciple. You see, I 
do not have a college degree. I am not proud of that.
    A lot of folks that work at NASA have a lot of letters 
behind their names. Behind my name is NDBBA, ``No Degree, But 
Boss Anyway.'' But I think that we have to have a vision to 
dream and we have to make sure that this continues for my 
children and grandchildren and generations to come that will 
prosper in this great country and the spirit that it has. I 
kind of got off on a little tangent here. But I really believe 
this is one of the most important appointments that this 
Administration will make and it is one of the most important 
missions that this Committee has under its jurisdiction in its 
support of the future. I thank the Chairman.
    Senator Wyden. I thank my colleague.
    The Senator from Virginia.

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman. I thank you for 
holding this hearing and I want to associate myself with the 
remarks that you made at the outset of this hearing, as well as 
those of Senator McCain, Senator Hutchison, and I did not hear 
Senator Nelson, but Senator Burns hit the nail right on the 
head. I join my colleagues, Mr. O'Keefe, in welcoming you here 
to this Committee. I look forward to listening to your vision, 
your views as to where NASA needs to go and to the future and 
also working with you in the future.
    In my opinion, NASA is just a uniquely wonderful government 
organization. It is one that is made up with brilliant people, 
some of whom are dreamers. They are intellectuals, and just 
some truly topnotch scientists as well. In terms of leadership 
in the scientific community, NASA is just one of the very top 
in the entire world, not just this country, but all over the 
world. In its scientific research that has direct benefits 
clearly to our national security and national defense, but also 
to our economy, and tangibly over the years, has improved the 
lives of Americans and people all over the world.
    Americans, I think, should be and are proud of the historic 
accomplishments of NASA. But we are not here to talk about the 
past. We are here to talk about the future. And there is a lot 
of talk about the way things have been in the last few years. 
It is important to look at past record and where it can be 
improved, but what I am most interested in is really what was 
alluded to by Senator Hutchison and Senator Burns, and that is 
the core guiding principles that will mark your leadership. 
Leaders are to lead, to motivate, to inspire, and to get others 
to join in that cause.
    I think that the guiding principles here need to be held in 
equal esteem. No. 1, it should be continued scientific 
excellence for the competitive leadership of America in 
aeronautics and space, and the second principle should be, of 
course, fiscal responsibility with the taxpayers' dollars. 
Those are two equally important principles and goals.
    Now, from what I have read in the newspapers and discern 
through answers that you have had, Mr. O'Keefe, to the 
Committee questionnaires, I see that these objectives seem to 
be your objectives.
    Now, folks have talked about the Space Station at length. I 
want to focus on the first A of NASA, which is aeronautics.
    That is scientific excellence that we need to focus on, 
because it is an important responsibility of NASA. Back when I 
was Chairman of the subcommittee, before Senator Wyden was 
Chairman of the Science, Technology, and Space Subcommittee, 
back in April, we held a hearing on aeronautics in our country. 
We heard about Europe's serious plan to dominate the skies in 
the future. At the same time, we heard about a lack of 
attention given to the U.S. programs for advancements in this 
vital area of aeronautics.
    The question is for all of us and you as Administrator, Mr. 
O'Keefe, what does the United States intend to do about this? 
What do we intend to do and how are we going to respond to this 
challenge? If we are going to respond to this challenge, which 
I think Americans would want us to do, when, and how? And in 
that hearing, it was made abundantly clear that aviation-
related manufacturing as far as jobs in this country is the 
next exporter in our economy and so if we lose this 
preeminence, that means a loss of some outstanding jobs and 
capabilities here in our country. A study by the National 
Research Council stated that the continued reductions in 
funding for aeronautics research and development may have 
irreversible consequences.
    Back in the 1970s and 1980s, where our main competition may 
have been the Soviet Union, America was still alone at the top 
in the field of aeronautics research. No other country in the 
world could boast what we had then. But since early 1990s, the 
U.S. position in this field has steadily declined and now the 
very existence of our U.S. entry in this field is being 
threatened by better funded European initiatives. Once the 
United States loses this leadership position, it will be 
extremely difficult to regain that leadership role given the 
difficulty of reassembling the infrastructure, the scientists, 
the engineers, the highly skilled people in the investment 
capital that is needed. It is not as if you just find people 
who have those capabilities or the facilities.
    I think in addition to this international challenge, we 
have a national challenge, Mr. O'Keefe, and that has to do with 
better security. We have seen it since September 11th.
    I think advancements in aeronautics can help with security 
as well as better transportation system through the skies and 
this is going to depend on new technologies, the need is both 
short-term and long-term. We need to pursue both evolutionary 
and revolutionary advances, but the key to it is clearly human 
capital.
    We need to make sure that more and more youngsters or 
younger people are studying in our colleges and universities. 
The age of those who are in the aeronautics field are older 
people, more likely to retire. You'll find that within the NASA 
organization. We have to reverse this trend by first increasing 
our efforts at aeronautics research at NASA, as well as the 
private sector.
    I was very pleased to read in one of the answers to your 
questionnaires that the use of colleges and universities in 
that effort and partnership, it doesn't need all to be NASA.
    Our colleges and universities can help whatever the mission 
may be on that particular project, but also encourage 
youngsters or people who are being educated to get an education 
in aeronautics. There are many funding matters.
    There are many important missions in NASA. Aeronautics 
needs to be equally there at the top. We must inspire to 
improve the lives of people in the future and innovate, as well 
as make sure our economy is strong and make sure we have 
security in our skies. I look forward to working alongside of 
you in the future for America's future.
    Thank you, Mr. Chairman.
    Senator Wyden. I thank my colleague for an excellent 
statement. I am sure, Mr. O'Keefe, you are excited that you can 
begin now. We welcome you and I understand the O'Keefe starting 
five is here, your family. Perhaps you could introduce them at 
this point to all of us.
    Mr. O'Keefe. My wife Laura is here, daughter Lindsay, son 
Kevin and son Jonathan.
    Senator Wyden. Welcome to all of you. It is an exciting day 
for the O'Keefe family. Despite all the speeches, I want to 
note for the record that everybody will vote for you. We will 
enter your prepared remarks in their entirety into the record. 
Please proceed with your opening statement as you choose.

 STATEMENT OF HON. SEAN O'KEEFE, DEPUTY DIRECTOR OF THE OFFICE 
   OF MANAGEMENT AND BUDGET, NOMINEE TO BE ADMINISTRATOR OF 
         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Mr. O'Keefe. Mr. Chairman and Members of the Committee, it 
is a pleasure to be here this morning. I am most honored to be 
the President's nominee to be Administrator of National 
Aeronautics and Space Administration. It has been a particular 
honor to enjoy the sponsorship of the distinguished House 
Science Committee Chairman, Congressman Sherry Boehlert and my 
long-time friend and mentor, Senator Ted Stevens. I am honored 
by their support and deeply appreciate their kind 
introductions.
    Should the Senate confirm the President's nomination, I 
expect that service as a NASA Administrator will be a daunting 
challenge, but I have been overwhelmed by the willingness of 
the Members of this Committee and counterparts in the House to 
offer invaluable advice and counsel on how these challenges 
should be addressed. It speaks volumes about the prospect of a 
strong constructive working relationship with this panel and 
with Mr. Boehlert's Committee colleagues if I am confirmed.
    I am most excited by this opportunity and am privileged 
that the President has entrusted his confidence by his 
nomination. NASA is an unparalleled preeminent institution 
dedicated to world class technology research and development 
with a storied history known to all Americans. We all take 
great pride in remarkable achievements and the dedication of 
the amazing professionals our Nation has been fortunate to 
attract to the agency's important mission.
    The President and the Vice President have charged me with 
the task of capitalizing on this impressive legacy, and 
reinvigorating that entrepreneurial spirit that has 
characterized this fabled institution since its beginning in 
1958. Their expectation is that NASA will press the edge of the 
technology envelope and develop science-driven enterprises and 
applications in the finest traditions of this institution.
    Now, to accomplish this task, I'd like to say that I bring 
the full range of experience and capability that anyone would 
hope to have as an Administrator. But I must be honest with 
this Committee and with myself that I do not embody all the 
characteristics I think would be desirable. For such 
challenges, I would like to be a lot more like my dad--educated 
at the United States Naval Academy, Notre Dame, Tulane, Naval 
Postgraduate school, he is one of the original elite corps of 
Rickover-trained engineers. He excelled in a range of industry 
challenges in the power generation business and shipbuilding. 
Now fully retired, and that is a euphemism, at the age of 75 he 
is attending Bowdoin College pursuing studies in astrophysics 
and German literature. He is the quintessential Renaissance man 
with a penchant for exasperating my mother.
    Instead, the President's nominee before you is a public 
servant fortunate to have served in a range of Federal public 
institutions, academia, think tanks and private corporate 
pursuits. That has contributed to complexities of space-driven 
research projects and most important is the responsibility to 
support and continue developing the extraordinary professionals 
engaged in NASA's diverse and complex endeavors. My 
qualifications are that of a public administrator, and I have 
developed a good sense not to attempt tasks which require the 
expertise of the chief engineer, but the skills to attract 
talent qualify to succeed technology.
    The immediate challenge confronting NASA today are largely 
not scientific, technical or engineering in origin. Indeed, the 
history and achievement in these disciplines is legendary. 
Rather, the challenges are more aptly described in management 
terms. Problems aren't overwhelming, but they do require 
attention to fundamental management principles less they are to 
be assumed by process failures. The larger vision for NASA must 
include the essential leadership of NASA to develop leading 
technologies rather than success defined by linear 
incrementalism. Indeed, the creativity is there at NASA in the 
academic community, within the industry, and with our 
international partners. And this creativity can be channelled 
to achieve effective results and assure that the best ideas are 
pursued to get the most out of this impressive research 
enterprise. But, these are noble objectives. They can be 
pursued and achieved within a firm management framework.
    I wish I possessed all of the range of talents that my dad 
embodies. But I regret the dominant genes he passed along 
mapped a path to a premature gray, receding hairline, and a 
persistent sinus condition. Those are the two most dominant 
traits he passed along, but the good news is that he is a very 
attentive and extremely available for solid advice and counsel. 
In my upbringing, he and my exceedingly tolerant mother, 
instilled in me a commitment to do my very best in everything I 
do.
    That is an element of character I promise to employ, with 
my modest talents, my wife Laura and children can attest to the 
fact that it takes me a lot of time to accomplish my best. They 
have tolerated my penchant for the rigors of public service, a 
malady that every Member of this Committee endures for love of 
country. My unending gratitude and love for them can be not 
adequately expressed. They know the depth of my appreciation 
for their sacrifice.
    Mr. Chairman, and Members of the Committee, thank you again 
for the consideration. I look forward to the prospect of 
working with you on this exciting portfolio should you and your 
colleagues find it appropriate to advise and consent on the 
President's nomination. I am prepared to respond to any 
questions that you may have.
    [The prepared statement and biographical information of 
Hon. Sean O'Keefe follows:]

                Prepared Statement of Hon. Sean O'Keefe

    Mr. Chairman and Members of the Committee, it is a pleasure to be 
here this morning. I am most honored to be the President's nominee to 
be the Administrator of the National Aeronautics and Space 
Administration, and I am grateful for the Committee's expeditious 
consideration. It is a particular honor to enjoy the sponsorship of the 
distinguished House Science Committee Chairman, Congressman Sherwood 
Boehlert, and my long time friend and mentor, Senator Ted Stevens. I am 
honored by their support and deeply appreciate their kind 
introductions.
    Should the Senate confirm the President's nomination, I expect that 
service as the NASA Administrator will be a daunting challenge. But, I 
have been overwhelmed by the willingness of the Members of this 
Committee and counterparts in the House to offer invaluable advice and 
counsel on how these challenges should be addressed. It speaks volumes 
about the prospect of a strong, constructive working relationship with 
this panel and with Chairman Boehlert's Committee colleagues, if I am 
confirmed. I am most excited about this opportunity and am privileged 
that the President has entrusted his confidence by his nomination.
    NASA is an unparalleled, preeminent institution dedicated to world 
class technology research and development with a storied history known 
to all Americans. We all take great pride in the remarkable 
achievements and dedication of the amazing professionals our Nation has 
been fortunate to attract to the agency's important mission. The 
President and the Vice President have charged me with the task of 
capitalizing on this impressive legacy and reinvigorating the 
entrepreneurial spirit that has characterized this fabled institution 
since its beginning in 1958. Their expectation is that NASA will press 
the edge of the technology envelope and develop science driven 
enterprises and applications in the finest tradition of the 
institution.
    To accomplish this task, I'd like to say that I bring the full 
range of experience and capability any one could hope to have in an 
Administrator. I must be honest with the Committee and with myself, 
that I do not embody all the characteristics I think would be 
desirable. For such challenges I'd like to be more like my Dad--
educated at the Naval Academy, Notre Dame, Tulane and the Naval 
Postgraduate School, he is one of the original, elite corps of 
Rickover-trained nuclear engineers. After a distinguished naval service 
career, he excelled at a range of industry challenges in the power 
generation business and ship construction. Now fully retired at age 75, 
he's attending Bowdoin College pursuing studies in astrophysics and 
German literature--conducted in the language. My father is the 
quintessential renaissance man with a persistent quest for knowledge--
and a penchant for exasperating my mother.
    Instead, the President's nominee before you is a public servant 
fortunate to have served in a range of Federal public management 
opportunities, academia, think tanks and private corporate pursuits. 
These experiences contribute to a working understanding of the 
complexities of managing a technology-driven enterprise with program 
responsibilities as varied as large scale systems integration to 
dynamic aerospace operations to science-driven research projects. Most 
important is the responsibility to support and continue developing the 
extraordinary professionals engaged in NASA's diverse and complex 
endeavors. My qualifications are that of a public administrator, and 
I've developed the good sense not to attempt tasks which require the 
expertise of the chief engineer, and the skills to attract talent 
qualified to succeed at harnessing technology.
    The immediate challenges confronting NASA today are, largely, not 
scientific, technical or engineering in origin. Indeed the history of 
achievement in these disciplines is legendary. Rather, the challenges 
are more aptly described in management terms--financial, contractual 
and personnel focused. The problems are not overwhelming, but do 
require attention to fundamental management principles lest the 
important science and technology-driven enterprises be subsumed by 
process failures. The larger vision for NASA must include the essential 
element of leadership to establish strategic goals for developing leap 
ahead technologies rather than successes defined by linear 
incrementalism. Indeed, the creativity is there at NASA, in the 
academic community, within the industry, and with our international 
partners. And this creativity can be channeled to achieve effective 
results and assure that the best ideas are being pursued to get the 
most out of this impressive research enterprise. These are noble 
objectives. They can be pursued and achieved within a firm management 
framework.
    I wish I possessed the full range of talents my Dad embodies, but 
regret the dominant genes he passed along mapped a path to a premature 
grey, receding hairline and a persistent sinus condition. The good news 
is that he is very attentive and available for solid advice and 
counsel. And in my upbringing, he and my unceasingly tolerant mother, 
instilled in me a commitment to do my best in everything I do. That's 
an element of character that I promise to employ--and with my modest 
talents, my wife Laura and children, Lindsey, Jonathan and Kevin can 
attest to the fact that it takes me a lot of time to accomplish my 
best. They have tolerated my penchant for the rigors of public 
service--a malady that every Member of this Committee endures for love 
of country. My unending gratitude and love for them can not be 
adequately expressed, but they know the depth of my appreciation for 
their sacrifice.
    Mr. Chairman, Members of the Committee, thank you for your 
consideration and I look forward to the prospect of working with you on 
this exciting portfolio should you and your colleagues find it 
appropriate to advise and consent on the President's nomination. I am 
prepared to respond to any questions the Committee may have.

                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name: Sean O'Keefe (middle name, Charles).
    2. Position to which nominated: Administrator, National Aeronautics 
and Space Administration.
    3. Date of nomination: November 27, 2001.
    4. Address: Home: Information not released to the public; Office: 
1252 Eisenhower Executive Office Building, Washington, DC 20503.
    5. Date and place of birth: January 27,1956; Monterey, California.
    6. Marital status: Married to Laura O'Keefe (formerly Laura 
McCarthy).
    7. Names and ages of children: Lindsey SeYeon O'Keefe, Age: 15; 
Jonathan JungSoo O'Keefe, Age: 12; Kevin Sean O'Keefe, Age: 10.
    8. Education: Master of Public: Administration, The Maxwell School 
of Citizenship and Public Affairs at Syracuse University, 1978; 
Bachelor of Arts, Loyola University, New Orleans, Louisiana, 1977; 
Program in National Security and International Affairs, Kennedy School 
of Government, Harvard University, Cambridge, Massachusetts, 1985.
    9. Employment record: Deputy Director, Office of Management and 
Budget, March 2001-Present; Louis A. Bantle Professor of Business & 
Government Policy, and Director, Maxwell-SAIS National Security 
Studies, Maxwell School of Citizenship & Public Affairs; Syracuse 
University, Syracuse, New York, 1996-March 2001; Professor of Business 
Administration and Special Assistant to the Senior Vice President for 
Research and Dean of the Graduate School, Pennsylvania State 
University, University Park, Pennsylvania, 1993-1996; Adjunct 
Professor, Naval Postgraduate School, Monterey, California, 1993-March 
2001; Secretary of the Navy, 1992-1993; Comptroller and Chief Financial 
Officer; Department of Defense, 1989-1992; Staff Director, U.S. Senate 
Committee on Appropriations, Defense Subcommittee, 1986-1989; 
Professional Staff Member, 1981-1989; Budget Analyst, Naval Sea Systems 
Command, Department of the Navy, 1980-1981; Presidential Management 
Intern, inaugural class of 1978-1980.
    10. Government experience: Advisor to the Director, Congressional 
Budget Office, 1999-March 2001; Chair of the Secretary of the Navy's 
Personnel Task Force, 1999-2000; Counselor to the Secretary Defense 
Quality of Life Commission, 1995; Vice Chair of Pennsylvania Governor 
Tom Ridge's Base Closure and Realignment Advisory Committee, 1995-1996; 
Staff Member to the Louisiana State Senate Committee on Highways, 
Transportation and Public Works, 1977.
    11. Business relationships: Member of the Board of Trustees, The 
CNA Corporation, 1995-March 2, 2001; Member of the Board of Directors, 
Tesoro Petroleum Corporation, 2000-March 2, 2001; Applied Research 
Laboratory, Pennsylvania State University, 1994-March 2, 2001; 
Chairman, 1999-March 2, 2001; Member of the Raytheon Company Strategy 
Advisory Board, 1999-March 2, 2001; Member of the Northrop Grumman 
Corporation Advisory Board for the Integrated Systems and 
Aerostructures Sector, 2000-March 2, 2001; Member of the Sensis 
Corporation Board of Directors, 2000-March 2, 2001; Member of the Board 
of Directors, J. Ray McDermott, S.A. 1997-1999; Consultant, Textron 
Corporation 1993-1995; Member, Advisory Board, DSR Corporation 1995-
1997; Member of the Board of Directors, GKI, Inc. 1993-1994.
    12. Memberships: Member of the Information Technology Commission, 
Center for Strategic & International Studies, 2000-March 2, 2001; 
Member of the Naval Postgraduate School Advisory Board, 1993-1995; 
Honorary Chairman, Marine Corps League Toys for Tots Campaign, Nittany 
Leathernecks Detachment, 1995; Member of the Defense Acquisition 
University Board of Visitors, 1996-2000; Chair, Military Investigative 
Practices Study, National Academy of Public Administration, 1999-2000; 
National Academy of Public Administration Fellow, 1996-present; Member 
of the Bohemian Club of San Francisco, 1996-present.
    13. Political affiliations and activities: (a) List all offices 
with a political party which you have held or any public office for 
which you have been a candidate. Registered Republican, RNC.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years. Member of the Central Pennsylvania Republican Party 1993-1996; 
Member of the Eastern New York Republican Party, Onondaga County 1996-
present; National Policy Forum, 1994-1995; Republican National 
Committee 1981-present.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Senator Chafee Committee 
(PAC) 1994, $100; George W. Bush for Governor Committee 1994, $500; 
Republican National Committee, 1994, $250; Alliance for American 
Leadership (Dick Cheney PAC) 1994, $2,000; Santorum 1994 (Senator 
Santorum campaign) $250; Ted Stevens for Senate (campaign) 1996, $2,000 
*; Joe McDade Legal Defense Fund 1995, $250; Peggy Wilson for City 
Council (campaign) 1997, $500; Bob Livingston for Congress (campaign) 
1994, $1,000; George W. Bush Exploratory Committee, 1999, $2,000 *; 
George W. Bush for President, 2000, $2,000 *
---------------------------------------------------------------------------
    * Contributions by myself and my wife, Laura O'Keefe.
---------------------------------------------------------------------------
    14. Honors and awards: Distinguished Public Service Award presented 
by President George Bush and Defense Secretary Dick Cheney, January 
1993; Fellow of the National Academy of Public Administration, elected 
1996; Visiting Scholar, Wolfson College, University of Cambridge, UK, 
1994; Visiting Lecture, Strategic Studies Program, Pembroke College, 
Oxford University, UK, July 1994; Honorary PhD, Wheeling Jesuit 
University (to be conferred May 2002).
    15. Published writings: Keeping the Edge: Managing Defense for the 
Future, contributing author, edited by Ashton B. Carter and John P. 
White. MIT Press, October 2000; The Defense Industry in the Post-Cold 
War Era; Corporate Strategies and Public Policy Perspectives, with Dr. 
Gerald Susman, Elsevier Science. Oxford, UK, January 1999; Breaking the 
Market or Preventing Market Breakdown: The Technology Reinvestment 
Program, with Dr. Volker Franke. Maxwell-SAIS National Security Studies 
Case number 1197-05, November 1997; An Analysis of the Technology 
Reinvestment Program as a Method of Defense Conversion and Industrial 
Policy and its Affect on Shareholder Wealth, Smeah College of Business 
Administration, Pennsylvania State University, April 1996; The Orange 
County Financial Crisis: The Maxwell School of Citizenship and Public 
Affairs, Syracuse University, case file, October 1997; A World Lit by 
Lightning, Proceedings, Naval Institute Press, Annapolis, Maryland, 
January 1995; Planning Without a Plan: A Review of the Fiscal Year 1994 
Clinton Defense Budget, American Defense Annual, Mershon Center Ohio 
State University, Lexington, Books, New York, New York, February 1994; 
Clinton's Stealth Weapon: The Federal Budget, The Los Angeles Times, 
Los Angeles, California, February 21, 1994; The Alpha and the Omega, 
Vital Speeches of the Day, Volume LIX, No. 11, Random House Publishing, 
New York, New York, March 15, 1993; On Tailhook, Drop the Other Shoe, 
The Los Angeles Times, Los Angeles, California, March 1, 1993; Despite 
Tailhook, Navy on Path to Gender-Neutrality, The Times Picayune, New 
Orleans, Louisiana, April 27, 1993; The Port of Heaven, Vital Speeches 
of the Day, Volume LIX, No. 2, Random House Publishing, New York, NY, 
November 1, 1992; From the Sea: Preparing the Naval Service for the 
21st Century, Proceedings, Naval Institute Press, Annapolis, Maryland, 
November 1992.
    16. Speeches: Testimony before the House Appropriations Committee, 
April 2001, on the fiscal year 2002 NASA Budget request and before the 
House Science Committee, November 2001, on the report of the 
International Space Station Independence Cost and Management Task 
Force.
    17. Selection: (a) Do you know why you were chosen for this 
nomination by the President? Yes. Based on my previous Federal 
experience and understanding of the President's and Vice President's 
policy agenda, I am Honored by the President's confidence to be 
entrusted with this important management portfolio should the Senate 
advise and consent affirmatively in the President's nomination.
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment? While NASA 
is a preeminent technical, engineering and scientific exploration 
agency, the challenges to be confronted are management oriented--
management of large scale systems integration projects, high-tech 
infrastructure and complex research and development projects, and 
leadership of high technology professionals are the primary areas which 
should demand the NASA Administrator's attention. My prior experience 
at the Defense Department, particularly as Secretary of the Navy, and 
practical as well as academic research into the challenges of 
teclulology management are most preparatory for the NASA post. My 
current capacity at the Office of Management and Budget provides a 
close familiarity with the President's Management Agenda which can and 
should be implemented at NASA at the earliest opportunity.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? Yes, all business relationships have been 
severed. However, I have been granted a leave of absence from the 
Maxwell School of Citizenship and Public Affairs at Syracuse University 
as the Louis A. Bantle Professor of Business and Government Policy 
which I may resume at the conclusion of my public service.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? Yes. I have been granted a leave of absence from the 
Syracuse University Maxwell School to resume a faculty appointment as 
the Louis A. Bantle Professor of Business and Government Policy upon 
conclusion of public service.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No, aside from the 
aforementioned leave of absence from Syracuse University.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Presidential 
appointment orders specifically qualify service at the pleasure of the 
President ``for the time being.'' As such, the President's preference 
will determine the duration of my service should I be confirmed.

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. None.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None that I am aware of.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. In my official public 
service capacity as Comptroller and Chief Financial Officer of the 
Departinent of Defense, Secretary of the Navy, and currently OMB Deputy 
Director, I have been routinely involved in the disposition of 
legislation affecting the administration and execution of public 
policy.
    Since departing the public service in 1993, I had no material 
involvement in the disposition of legislation. In the part-time public 
service capacity as Counselor to the Secretary of Defense Commission on 
Quality of Life and as Vice Chair of the Base Closure and Realignment-
Pennsylvania Action Committee (previously listed) my involvement in 
such matters has been peripheral and indirect.
    In my capacity as the Chairman of the National Academy of Public 
Administration study of Military Investigative Practices, the panel 
recommended, among other things, a change of law to permit arrest 
authority to officers of the military criminal investigative 
organizations. I had several discussions with members of the House 
Armed Services Committee who requested further information on the 
panel's findings in this regard. The fiscal year 2001 Defense 
Authorization Act included the expanded arrest authority provision. To 
the best of my knowledge, this is not likely to pose a conflict of 
interest.
    In my capacity as a member of the Board of Directors or consultant 
to corporations, I did not represent their interests before any Federal 
agency or department officials and know of now conflict of interest.
    To my knowledge, there have been no issues which have posed a 
conflict of interest during my tenure as Deputy Director of the Office 
of Management and Budget.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or, indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. None, other than 
in previously aforementioned public service capacities.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.) I do 
not anticipate the requirement to resolve conflicts of interest, but to 
the extent that any matter were to emerge which may call into question 
my objectivity, I would recuse myself from consideration and decision 
of any alternatives or options which could affect the outcome of the 
issue and delegate the matter to the next level of management 
responsibility. This was routinely my practice in each public service 
capacity I was privileged to hold previously. The Department of Defense 
General Counsel has retained all previous correspondence to this effect 
in my prior capacities, and the General Counsel at OMB has current 
recusal correspondence.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning; potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.

                            D. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a compliant to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. I have never been disciplined or cited and have not been the 
subject of a complaint to the best of my knowledge.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. Yes. In 
July 1977, I was arrested in New Orleans, Louisiana outside a 
neighborhood tavern, along with a dozen others, for violating a local 
ordinance against ``obstructing a sidewalk.'' I was released within 
hours, the charge was dropped a few days later, the case never raised 
before the municipal judicial authorities, and no fine levied or 
rendered. This incident has been detailed in every security clearance, 
personal background investigation, and appointment background review l 
have ever completed over the past 24 years!
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details. As an outside, 
non-management Director of J. Ray McDermott, S.A., I was named in a 
class action suit of investors/shareholders of the company attendant to 
a proposal to merge J. Ray McDermott, S.A. with another company. The 
merger was completed in August 1999 and the civil action was dropped 
with no further action or settlement required.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.

                     E. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures? Yes.
    3. Will you cooperate in providing the committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee? Yes.
    4. Please explain how you will review regulations issued by your 
department/agency, and work closely with Congress, to ensure that such 
regulations comply with the spirit of the laws passed by Congress. 
Regulations are the means to implement the administrative expression of 
statutory objectives. As such, regulations should capture the 
legislative intent in the ideal circumstances. It is with this 
philosophy that I would endeavor to promulgate applicable regulations, 
if confirmed by the Senate.
    5. Describe your department/agency's current mission, major 
programs, and major operational objectives. Preparation of advice and 
options attendant to the development of the annual President's budget; 
promulgation of general management policy and procedures; and review of 
administrative regulations on behalf of the Executive Office of the 
President.
    6. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

                  F. GENERAL QUALIFICATIONS AND VIEWS

    1. How have your previous professional experience and education 
qualifies you for the position for which you have been nominated. My 
previous service as Secretary of the Navy and prior to that, as the 
Comptroller and Chief Financial Officer of the Department of Defense 
provided experience in managing larger organizations with strong 
internal cultures, as well as dealing with complex budgetary and 
financial management systems.
    My current capacity as OMB Deputy Director provides a government-
wide perspective and understanding of the President's Management Agenda 
which will be implemented at NASA as well as other agencies and 
departments.
    Previous academic postings, most recently as a Professor of 
Business and Government Policy at Syracuse University provided 
opportunities to reflect on managing innovation and professionals in 
high-technology enterprises.
    2. Why do you wish to serve in the position, for which you have 
been nominated? The challenge of leading NASA at this point in its 
extraordinary history is one of instilling management excellence worthy 
of its technical excellence and of helping NASA regain a reputation for 
credible cost control and risk management to enable it to take on 
future challenges as well as complete its current tasks. This is an 
opportunity of a lifetime.
    3. What goals have you established for your first 2 years in this 
position, if confirmed? As an overall vision for NASA, two elements are 
dominant: program operations at NASA must be science-driven; and 
programs should enable human exploration beyond Earth orbit and the 
Solar System.
    But first, we must reform and strengthen NASA to be able to take on 
new challenges after the International Space Station and the Shuttle.
    We must also: Ensure a sound financial management system and 
supporting culture for the International Space Station program that 
enables it to be a world-class research facility with strong 
international participation; Ensure that NASA enterprises are truly 
science-driven and that science requirements are established and used 
as the basis for making sometimes difficult budgetary choices; Move 
toward reducing the magnitude of fixed costs, such as institutional 
overhead, in the NASA budget and increase the amount of discretionary 
funds available for pursuing scientific opportunity; Seek to establish 
closer cooperation with the Department of Defense and civil agencies to 
enhance the public benefits of NASA research programs.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? It is most important to reinforce a 
strong teclulical and aerospace engineering staff to assist in the day-
to-day operations. NASA has a strong internal culture and persons of 
integrity to help reform and strengthen NASA will be required.
    In my past professional experience, I have often had to draw on 
wide sources of expertise to deal with complex technical and management 
problems. I am comfortable working in new, rapidly changing 
environments and believe I will be able to find and attract persons 
with the skills needed to be effective.
    5. Who are the stakeholders in the work of this agency? The 
ultimate stakeholders in NASA are the American people, and we, as 
citizens deserve the very best effort to explore the reaches of cutting 
edge aeronautical engineering and the reaches of space.
    As an agency of the Executive Branch, NASA's principal stakeholders 
are the President and the Vice President who have the responsibility 
and authority to provide NASA's guidance and direction, and to whom the 
Agency must be ultimately accountable. The Congressional 
representatives of the people serve to reflect and focus their 
interests in the course of authorizations, oversight and appropriations 
of NASA's programs and budget, as requested by the President. Members 
of Congress--especially those on the committee jurisdiction, have a 
particular oversight responsibility for NASA programs and activities on 
behalf of the American people.
    Additional important stakeholders are the communities in which NASA 
Centers are located and their Federal, State and local elected and 
community leadership who have interests and concerns in local 
viability.
    Equally important stakeholders are the employees of NASA and their 
families, who have a direct stake in the success of NASA, its mission 
and programs. NASA conducts the bulk of its programmatic work through 
contractors who also have a stake in NASA programs. There are numerous 
private organizations that have a particular focus on aspects of space 
exploration, and express their views through a variety of venues, 
including conferences and member communications directed to the 
President and Vice President, Members of Congress, and NASA officials 
as well as others in the Administration.
    6. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question No. 10? The NASA 
Administrator must first be accountable to the President and responsive 
to his guidance and direction. The Administrator must be able to 
provide input to the President on NASA's needs and programmatic 
alternatives, through consultation and through the budget submission 
process. The Congress should also expect accountability from the NASA 
Administrator. The Senate, of course, must advise and consent to the 
nomination of the Administrator, and the Congress as a whole has the 
ultimate responsibility to determine NASA's budget and to oversee how 
that budget is put to use by the Agency. It is essential that the 
appropriate information about NASA programs and activities be given to 
both the President and the Congress in the most complete and accurate 
manner to inform their respective decisionmaking processes.
    The Administrator must be accessible to hear the concerns and views 
of all of the Agency's stakeholders, and to take them into account in 
making decisions that impact their interests, whether they be 
individual Members of Congress, State and local officials and community 
leaders, Agency employees, contractor representatives or interested 
organizations. Having received inputs from interested parties, the 
Administrator must then be responsible for making those decisions 
within the purview of the office and, when appropriate, forwarding 
recommendations to the President. for consideration and decision or, as 
necessary, as proposals by the Administration to the Congress.
    7. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector. (a) What do 
you believe are your responsibilities, if confirmed, to ensure that 
your agency has proper management and accounting controls? Financial 
management controls that link budgets and expenditures to results are 
fundamental to the ability of the Administrator to manage. It is 
essential that the financial system improvements currently underway are 
brought on line at the earliest possible opportunity. Since the 
Administrator is, quite rightly, held accountable for the performance 
of the agency, he is directly responsible for ensuring the agency has 
proper management and accounting controls to support decisionmaking. In 
particular, this responsibility includes ensuring the selection of an 
outstanding Chief Financial Officer and a Comptroller. They, in turn, 
are tasked with ensuring NASA enterprises are held financially 
accountable, that major decisions are brought to the Administrator in a 
timely manner, and that they all have reliable facts to work with.
    (b) What experience do you have in managing a large organization? I 
am currently Deputy Director of the Office of Management and Budget and 
previously served as Secretary of the Navy after serving as the 
Comptroller and Chief Financial Officer of the Department of Defense. 
During my faculty tenure at Syracuse University's Maxwell School, I 
also served on boards of directors of corporations which managed 
complex programs. Collectively, these experiences have provided a 
perspective on managing large, complex organizations which frequently 
conduct large-scale systems integration work.
    8. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals. (a) Please discuss what you believe to be the benefits of 
identifying performance goals and reporting on your progress in 
achieving those goals. The President's Management Agenda seeks to 
implement the tools of GPRA to establish performance goals and expected 
outcomes for all Federal programs. NASA programs lend themselves to 
measurement against such goal oriented management techniques.
    In refining the NASA goals and expected outcomes in accord with the 
President's management objectives, three points should be emphasized: 
goals need to be quantified against a known baseline; goals need to be 
subject to independent review; goals drive management decisionmaking at 
all levels of the organization to improve accountability.
    (b) What steps should Congress consider taking when an agency fails 
to achieve its performance goals? Should these steps include the 
elimination, privatization, downsizing or consolidation of departments 
and/or programs? These management techniques should not be used as 
``punishment''--rather each of these methods have merit depending on 
the mission and goals of the agency. Such steps are means to achieve a 
desired outcome; not ends in themselves. The NASA Administrator should 
be able to use these tools to meet performance, cost, and risk goals 
with the support of the Administration and Congress.
    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed? I would judge myself against 
this criteria: Safety is the No. 1 priority for all human spaceflight 
activities; A financial management system and culture must be 
established within NASA to produce reliable information for the 
President and the Administrator to make informed decisions and to 
permit necessary Congressional oversight; NASA enterprises should be 
truly science-driven; The agency must have a balanced portfolio of 
cutting-edge, peer-reviewed scientific research and technological 
accomplishment; NASA must rationalize the institutional infrastructure 
and endeavor to increase the research opportunities with a wider range 
of university and industry communities; Other agencies should have such 
high confidence that they often turn to NASA for technical leadership 
in areas of core competencies.
    9. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? In a high-technology 
organization such as NASA, there needs to be a focus on its strategic 
goals, and the organizational integrity and cohesion expected of a 
Federal agency. At the same time, NASA's missions require adaptability 
and flexibility.
    To achieve these objectives, decisionmaking should be as close as 
possible to sources of uncertainty and interdependence which therefore 
augers in favor of a very collaborative management relationship. As 
such, management should promote an atmosphere of creativity, specify 
broad performance goals, and maintain a broad based portfolio strategy.
    In my current and previous professional experiences, no employee 
complaints have been brought against me that I am aware of.
    10. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe. In my current capacity, I have 
testified before the Congress on several occasions, and have maintained 
frequent communications and dialog with Committees and Members of 
Congress regarding budgetary and general Federal management matters. In 
my previous positions within the Department of Defense, I maintained 
extensive interaction with the Congress and testified on numerous 
occasions before Committees of the Congress. In addition to my 
experience in dealing with and appearing before the Congress, my 
professional experience includes service for 8 years on the Senate 
Committee on Appropriations staff.
    11. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency. I believe it is important that the Inspector General 
retain ultimate independence in examining NASA activities for waste, 
fraud and abuse, as prescribed in the enabling legislation creating 
Inspectors General. The identification of areas of needed reform and 
improvement is a goal that both the Administrator and Inspector General 
should share. I believe honest and open communications, except where 
proscribed by investigative activities, should be the rule in the 
relationship between these two statutory officials.
    12. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress. 
Fundamental to the internal review of proposed regulations, or any 
other policy-implementing instrument, should be a review of both 
legislative language and legislative intent. I will ensure that such 
reviews are thorough and exhaustive and when questions or uncertainties 
arise, seek to determine the Congressional intent through 
communications with the cognizant Committees, Members and staff.
    13. In the areas under, the department/agency's jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views. There are a number of possible legislative 
initiatives within the realm of NASA's activities that, in my view, 
should be considered priorities. The first among those are the 
President's ``Freedom to Manage'' legislative; proposals: These 
initiatives address, across the Federal Government, a number of issues 
that are of particular importance to NASA. Principal among them are the 
personnel authorities the President seeks to export ``best practices'' 
across the Federal spectrum. NASA has spent most of the past 8 years 
under a hiring freeze, and has undertaken several ``buy-out'' 
initiatives to reduce its workforce. Unfortunately, such measures have 
an unpredictable impact on the agency's skill mix. NASA has serious 
workforce-related issues that need to be addressed, and the legislative 
authority, requested by the President will effectively address some of 
these pressing challenges.
    Another area of potential legislative action revolves around the 
President's initiative to competitively select sources for commercial 
activities. David Walker, the Comptroller General of the United States, 
has convened a panel charged by Congress to streamline government 
performance and contracting for commercial activities. The results of 
the panel effort is expected by spring 2002. These tools to improve 
commercial practices could have substantial bearing on NASA programs. 
Legislative proposals may emerge from this initiative.
    14. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending based on 
national priorities determined in an open fashion on a set of 
established criteria? If not, please state why. If yes, please state 
what steps you intend to take and a timeframe for their implementation. 
Yes. The President's budget development and Congress' consideration 
thereof, is the primary system to allocate discretionary spending based 
on national priorities determined in an open fashion on a set of 
established criteria. If confirmed, I would plan to be an active 
participant in this process.

    Senator Wyden. Mr. O'Keefe, thank you. As you know, our 
colleagues will have a number of questions.
    Mr. O'Keefe, let me begin by saying that whether it is 
misspent dollars or layers of bureaucracy fat at NASA, is not 
protective padding. That waste takes precious resources away 
from the scientific breakthroughs that the American people feel 
so strongly about and that you have heard my colleagues speak 
passionately about this morning. So my first question to you is 
how long is it going to take to drain the financial and 
managerial swamp at NASA, and what measures will you use to 
determine when the job is done?
    Mr. O'Keefe. Well sir, I think there are two factors that 
have to be considered in trying to reach a conclusion about how 
soon can we get the visibility that you are referring to. First 
one is that there is, I am told, a financial system that has 
been begun to be employed at NASA over the course of the last 
year-and-a-half. This is a third attempt, as I gather, to 
modernize the financial systems there and this one, by all 
accounts by some of the best talent that I know in this town, 
financial management arena have declared this to be the best 
chance that the agency has of finally establishing a total cost 
visibility. That is due to be online here within the next 6 
months and phased in over the next several years.
    My objective will be to achieve that at the earliest 
possible opportunities. Until we know that, until we have some 
confidence in what the total cost is of projects that have that 
kind of cost visibility, I do not know how to answer your 
questions in terms of what the long-term prospects are.
    The earliest phase that we can have this particular effort 
introduced and the financial systems overall employed and 
online we will be able to respond to that I think more 
accurately.
    Second factor, though, that I mentioned is the development, 
I think of a larger strategic set of objectives. As soon as we 
can begin the process of following what some of the Young 
Commission reports suggested of trying to line up what the 
science-driven objectives and technology-driven enterprises 
should be organizationally. I think they are referred to more 
specifically as it pertained to the Space Station, but 
certainly has applications across the entire agency. We will 
soon begin to prioritize those enterprises and objectives. That 
is going to be able to respond to the question more accurately, 
because you can then scope what the size and magnitude of the 
financial resources, as well as other assets, people, 
capabilities may require in order to achieve those objectives.
    Senator Wyden. Your reputation is one of being a strong 
fiscal watchdog. I and others have said we are not looking for 
sound financial management as an end in itself. It is really 
the underpinning for NASA to use the existing Federal funds to 
get back to its original goals: research and scientific 
exploration of space. So we would very much like to see you lay 
out your scientific vision for NASA, and particularly with 
regard to the agency's science and exploration goals.
    Mr. O'Keefe. I appreciate that. That is among the very 
first orders of business should I be fortunate enough to be 
confirmed and appointed to the position would be to organize 
that particular effort. I talked to Tom Young very specifically 
about reassembling elements of his Commission that were 
representatives, or Nobel laureates and science advisors, that 
were very helpful to him who has part of their recommendations 
as pertained in the Space Station, but again to identify what 
those priorities should be and get some advice from them, but 
ask each of the 10 directors as well as the range of technical 
and engineering professionals throughout the organization to 
begin to line up what those priorities ought to be. It ought to 
be, the agenda, overall strategic objectives of the 
organization should be driven by science as well as technology 
enterprise.
    Senator Wyden. What would be your research priority?
    Mr. O'Keefe. I guess in a larger context I would say that 
which reaches back to the origins, the beginnings of the agency 
itself, which is to be entrepreneurial, to focus on the far 
edge of the technology, to press that envelope as far as we can 
go, and to take the risks that would otherwise be not easy for 
many other institutions to even contemplate now. Not because 
there is not considered to be a potential payoff there, but 
because there is not a capacity to take on those kinds of 
challenges after all. This is really a unique institution, one 
which really if it is not performed and aptly summarized by 
Members of the Committee here, if NASA doesn't take on some of 
these challenges, they won't be approached.
    As a consequence of that, research agenda should be as far 
leading edge as we can reach it and focus more on that 
objective and focusing on the capability to perform those 
tasks.
    Senator Wyden. Your predecessor, Mr. Goldin, was at NASA 
for nearly 10 years and led the call for what was known as the 
faster, better, cheaper approach at NASA. How will the Sean 
O'Keefe era differ from the Dan Goldin era at NASA?
    Mr. O'Keefe. I guess first and foremost, I think, I hope it 
will be characterized in the very near term is let us get back 
to basics. Let us get back to fundamentals of what it takes to 
manage an extraordinary research enterprise that has the 
capacity to do things that simply would not be attainable 
anywhere else were it not for the amazing capabilities at NASA. 
Get back to those fundamentals.
    Second is to reinvigorate again the entrepreneurial spirit 
that motivated the greatness of the organization from its very 
beginning days, to think very specifically about what those 
technology-driven enterprises ought to be and to be focused 
about how we go about those tasks. And that we infuse, as far 
as that first objective as well, prudent management in order to 
take on selectively those tasks with the hopes of success, but 
at the same time recognizing the risks are going to be 
significant. So that is what I would hope would be at least the 
early characterization.
    Senator Wyden. We are going to have several rounds of 
questioning given the interest of Senators.
    I want to recognize next Senator Allen.
    Senator Allen. Mr. O'Keefe, I would very much like the 
final answer that you were giving to the Chairman here. The 
efforts of NASA, in particular in aeronautics, has always been 
for NASA to be involved in some of these high-risk research 
ventures. Some of those that the private sector could never do, 
but in collaboration with the government, it is very important. 
And let me first ask you, do you consider aeronautics research 
still a core function of NASA?
    Mr. O'Keefe. Sure. Absolutely.
    Senator Allen. Do you believe that investment in 
aeronautics in the future, you are talking about 
entrepreneurial spirit, do you think that investments in that 
research will produce positive results for our country and 
aeronautics generally? In commercial aviation as well as 
military sectors?
    Mr. O'Keefe. It has certainly been the history of the 
technology within the aerospace technology so far and I have no 
reason to expect it will be limited in the future.
    Senator Allen. Now, during this period of declining funding 
for NASA, and I have mentioned this in my opening statement, 
our European competitors, as well as the Japanese, have been 
increasing their aeronautics research and development funding, 
and the European Commissions announced a new plan to 
significantly further increase their government funding for 
aeronautical research. They have estimated funding, public and 
private that could exceed $100 billion U.S. dollars over the 
next 2 decades.
    In spite of this, there have been proposed significant 
reductions in NASA's aeronautical research budget in fiscal 
year 2002. Now, I know this is argumentative question, but I 
want to hear what your principles are, but do you believe that 
it is in our best interests as a Nation to allow our 
aeronautical and aviation capabilities to wither in the face of 
this competition, or if you say that we can have a huge 
positive impact in the future, how do we turn that around and 
face that competition?
    Mr. O'Keefe. Senator, I appreciate the spirit of the 
question, and intend to look at the technology overall and 
again to expand on the risk that should be assumed in these 
kinds of circumstances given this capability in large measure 
wouldn't be faced otherwise. Having said that, I guess my bias 
is that there is a mindset in every Federal program that if 
there is more money the year later, then that is definitionally 
good. If there is less, it is definitionally bad. It becomes an 
incremental argument.
    Success is driven by single digits as in less than the 
number on one hand of an increase, and that has been 
celebrated. Reductions of the same magnitude is a collossal 
disaster of the time. I think what the President's commitment 
has been, what I find most challenging about the opportunity 
and I am looking forward to is the opportunity to implement the 
President's management agenda at an organization like NASA, 
which is frankly not a little agency. This is an organization 
that is 4 times the size of the EPA, and the largest single 
independent agency of the Federal Government, and so as a 
consequence the opportunity to do some things that focus on 
President's management agenda, emphasizing performance, looking 
at outcomes, and determining not necessarily percentages of 
increase or decrease, but what's the best solution set of an 
option to pursue that gain the maximum return.
    That is what we are going to be about, I hope, at NASA, and 
that is going to be the focus that I think could be emphasized 
in a way that would respond to your question, intent, and the 
spirit of it as a reinvigoration of our involvement and that of 
partnering with industry to expand the edges of what we could 
do in the aeronautics business in a way that has not so far 
been achieved as well, because we have been focused on 
increments, not only objectives of performance.
    In the end, that is not a specific answer that says yes, 
there will be an increase or decrease, but one that I hope is 
an expression of commitment to you that I'd like to be able to 
demonstrate after some period of time in tenure--if I am 
fortunate enough to be confirmed--that demonstrates indeed 
there is a quantum performance improvement that we can lend in 
this particular enterprise.
    Senator Allen. Let me follow up on specifics. I thank you 
for the intent expressed in that answer. The NASA aeronautical 
research centers work closely with FAA and policies affecting 
flight safety or the airline system capacity which everyone on 
this Committee knows has to be done and it is a wonderment that 
everyone knows it needs to be done. But we are not going to do 
it now and we are going to wait a few years. NASA works in 
partnership with the Department of Defense as far as military 
aviation. Do you see NASA expanding in these particular 
collaborative partnerships with other government agencies. Have 
you had a chance to review those particular ones?
    Mr. O'Keefe. Yes, sir. I think we all come to capacities in 
whatever it is we endeavor. We simply cannot afford to maintain 
a chance for severability between the civil and national 
security related operations that have centered upon them. I 
hope to emphasize, to seek out those opportunities of greater 
collaboration with capacity and the Defense Department arena, 
to have resident and in NASA could partner.
    Senator Wyden. The time of my colleague has expired.
    The Senator from Florida.
    Senator Nelson. Thank you, Mr. Chairman.
    Mr. O'Keefe, I enjoyed our in-depth discussion yesterday.
    Mr. O'Keefe. As did I, Senator.
    Senator Nelson. Thank you for your time. What I would like 
to do today is to expand that discussion, and there will be 
some repetition, because I would like to get it as part of the 
record, but I would like to give you an opportunity for 
expanding and expounding your ideas.
    First of all, let us talk about the Young Report. It is my 
understanding from your comment yesterday that you support the 
Young Report.
    Mr. O'Keefe. Yes, sir.
    Senator Nelson. Are there any particular parts of the Young 
Report that you disagree with?
    Mr. O'Keefe. Again, as we discussed, I view as a good 
strategic framework that an extraordinary group of very diverse 
professionals that I am still stunned that Tom Young is able to 
get to concur in any single set of objectives yet did it in a 
way that was concise and I think very straightforward, that as 
we approach those strategic frameworks, there are going to be 
implementation issues, as we discussed and the very specifics 
of each of those implementation issues I would like to defer 
the opportunity to be more elaborative on at this stage until 
such time we can figure out what's going to take these 
particular elements. I think he is right on the mark, focused 
on the problems. The Commission focused on the problems that 
are most essential.
    As a template and a blueprint, that is the first start, and 
between that and the President's management, those are the two 
documents that will be, I hope, viewed as required reading 
throughout the organization.
    Senator Nelson. I too think that one of the great public 
servants, particularly in the aerospace field, has been Tom 
Young. There are troubling parts to me of Young, one of which 
we discussed yesterday, that because of NASA's financial 
situation that you would possibly lower the number of annual 
launches of the Space Shuttle to four. That has some enormous 
consequences, because if we suddenly then had to robustly 
increase and a lot of all of this expertise had been laid off 
in the process, then in having to rehire, you lose a lot of 
that corporate memory that has been so valuable to NASA, why do 
not you comment on that?
    Mr. O'Keefe. I do not know what the exact number of flights 
should be. I think it first and foremost--and I am sure I am 
very hopeful, Senator, that you would concur on this view--that 
it ought to be driven largely by payload requirements, the 
science driven objectives, the technology enterprises that we 
seek to launch that will be conducted in that unique atmosphere 
literally or environment that the Space Shuttle provides and 
its linkage with our International Space Station. That ought to 
be a facing factor. I concur with you that in and of itself an 
artificial limitation based on some notional view of what 
numbers of dollars ought to be appropriate is not convincing 
either, so I do not know what that number ought to be. I think 
what the Young Commission did that was extremely helpful was 
they stayed within a parameter.
    They did not venture off and say let us assume that 
resources are unlimited, which would be the propensity of many 
Commissions faced with the same charge they were. Instead, they 
were realistic and were of the mind that suggested no, let us 
take the tougher task. What if we restricted to where we are, 
because I think everyone has an idea how to build the Endeavor, 
how to expand the skill of a project or program.
    I have never found anybody with difficulty trying to find 
difficulty how to add money to this town. That is very unique. 
What is difficult, and I think Tom Young and his membership 
took over, was the difficult challenge of trying to figure out 
how to maintain within a limited parameter and therefore what 
would be those tradeoffs, so I will have to take those as one 
of the consequences that he would assess and one of the impacts 
that we live with that underlying assumption and I am not sure 
that that underlying assumption is going to absolutely come to 
pass, so over time, we will determine what the right answer is 
going to be driven by those other objectives that I like to 
think that you and I agree to which are the science driven and 
technology driven enterprise and to the extent that you have 
the capability to achieve that, that is the point. That is the 
larger objective.
    Senator Nelson. This is just a beginning, so whenever you 
want me to stop and pass it on, I am just going to continue as 
you will permit. Let me, before we send it on to Senator Burns, 
say that the Young Commission report in and of itself is a good 
document. But when you put it into the context that NASA has 
been a bad boy, and that NASA must be punished, and so that we 
are going to find a way to redirect funds within NASA, that is 
when I start to get concerned.
    Now, no less a space giant than Chris Kraft has written a 
letter, an open letter concerning the recent report of the task 
force chaired by Tom Young. This is what Chris Kraft says. He 
says: ``First it is difficult to perceive that such a 
formidable group''--talking about the Young Commission--``would 
present such a narrow view. You would think that many members 
of the task force knew the past history of NASA Space Station 
activity and given that premise had to realize that today's 
financial status was almost preordained.
    ``The overruns--or more poignantly, the total cost of the 
ISS--resulted from a continuous change in direction of the 
program which was beyond the control of those who were required 
to build the Space Station.'' He continues, ``if you take into 
account the sordid history of the Space Station, you will find 
that the people in NASA who were saddled with making a program 
work which was almost unmanageable in the first place, have 
done a miraculous job to bring the program to the point it is 
at today for the money that they had to do it with.
    ``As usual, the working level people get blamed for the 
horrible mess created by the people who did not have to do the 
job.'' And he concludes, ``the Space Station has been through 
at least five different phases since its inception. Each phase 
caused increases in schedule, cost, and complexity.''
    To then take that sordid history of which has produced some 
remarkable technology that has been a symbol with remarkable 
adaptability to make it work, and it is. It is an incredible 
structure up there that is working. We have got to make it 
better. I do not want us to focus just on what went wrong. I 
want us to get that corrected, but I do not want to use that as 
an excuse to punish NASA, to penalize the people, to knock the 
Space Shuttle program down to almost nothing, and then not have 
a talented capable workforce that when we need to surge in the 
future, and thereby a time to surge in the future, then all of 
that base is gone.
    Senator Wyden. The time of my colleague on this round has 
expired. I know my colleague has strong views on these matters. 
We are going to have a number of rounds of questioning. We want 
to make sure all our colleagues get a chance to respond.
    Mr. O'Keefe, why do not you respond to the Senator from 
Florida and we will recognize Mr. Burns.
    Mr. O'Keefe. Thank you. Senator, since January 20th, the 
President has directed us to view all matters as looking 
forward. Do not look past. Look behind us. What was the origin. 
And as a consequence, he was very correct about this.
    This is no exception. Nothing since that time has been 
punitive or intended to punish anything. My intent is not to 
begin--if I am fortunate enough to be confirmed and have the 
opportunity to take on this leadership challenge--my intent 
will not be to try to unearth what led to the circumstance or 
where we are today. It is where we are. As a consequence, one 
of the points in responding to Senator Allen is get back to 
basics.
    Let us start there and move ahead on how we are going to 
define the requirements for the overall objectives and mission 
of NASA, how do we use this extraordinary capability that you 
and I concur is a technological marvel. It rivals the most 
elaborate, most difficult, most complex systems integration 
endeavor I ever saw in my experience in the defense 
establishment or any other corporate activity that I was 
involved in thereafter. This is really quite amazing.
    So as a consequence, I am going to build on what's there.
    Put the baseline in place so that we can expand and utilize 
that capability to its greatest extent possible driven by the 
technology-driven enterprise and the science objectives that 
should be the principal mission of this extraordinary research 
institution that is NASA, and proceed from there. Do not look 
behind. Let us move forward and figure out how we can press on 
that. I think on that point we are in agreement.
    Senator Wyden. The Senator from Montana.
    Senator Burns. My staff informs me I have said since 1952--
1992. Or 1972, it should be.
    Mr. O'Keefe. One of the three I am sure, Senator.
    Senator Burns. Actually, at this point it is multiple 
choice. You all are better at figures than I am.
    Senator Wyden. I am not going to get into this.
    Mr. O'Keefe. I am not really much of a numbers guy.
    Senator Burns. I am going to leave that to you. Us 
auctioneers, we can count money. And rather rapidly. Mr. 
O'Keefe, there are two areas of which I am specifically 
interested, probably three areas. The outreach on EPSCOR. It 
has been a launchpad for many smaller universities and colleges 
in their research and R&D work that has allowed them to 
participate in the national agenda of NASA, and some good 
things have come from that by the way that they weren't all 
found at MITs and this type thing.
    Also, the commercialization. I think it is one of those 
ongoing things that we have to strive for a little imagination 
for the entrepreneurial community and how they can participate 
in this and derive benefits from it that benefit us all, and 
then I think when we look at the infrastructure and our mission 
ahead and into the vision of things and dealing with dollars to 
complete those missions, I think we shouldn't shortchange the 
work that has been done and the work yet to do on unmanned 
reusables.
    We are talking about the Shuttle and the orbiter that we 
have now that is getting along in years, no doubt about it. 
Going to have to be some thought for the future there, but some 
of these trips could be made by unmanned reusables at a cost 
savings. And I think we should continue to explore the 
challenges that we have in developing a single launch, a 
vehicle, in other words. It is just a vehicle that can get into 
orbit and deliver the goods and then come back to earth without 
a pilot, to move some of the material that we are going to have 
to move in space.
    I was interested in your comments of R&D as far as it is to 
the aeronautics industry. If there is one thing that we have in 
this government right now that we have 2 or 3 agencies that are 
doing the same thing. Redundancy does not serve us well, and 
when we start talking about a limited amount of funds that we 
have to use.
    Some of the work that is being done at NASA is also being 
done in the FAA, and other areas, and I think it is time to 
take a look on how we can bring those programs together and 
maybe streamline that and not have the redundancy that seems 
like it occurs. I am always struck by the work that goes on at 
NIH, and I am also struck by the amount of money that we spend 
in the Veterans Administration to do some of the things that 
NIH does, and I do not know why everybody has to have their own 
turf or whatever in R&D.
    So those are the areas where I will generally be interested 
and we will visit about that. I do not have any specific 
questions this morning. I am really impressed with this 
appointment. Not to diminish the job that the previous director 
did, because I think he has done a lot of things in unseen 
places that was of little notice, but had high impact as far as 
the support of what we do in space. We know that it is going to 
be a long time before everything that we do and all the 
benefits is realized by the society that pays the bills, but 
nonetheless, I think right now, NASA doesn't owe this society a 
lot right now. I think we have profited in many, many ways that 
are untold and they are not the sexy above-the-fold type 
issues.
    So those are the areas that I continue to be very much 
interested in, and I think the reusables is just one of those 
areas where we have to take a very serious look at that and how 
we maneuver and how we will move materiel in space to complete 
the infrastructure for the mission that is ahead.
    I thank the Chairman for this hearing. I will support you 
wholeheartedly and I am sure we will have discussions and 
conversations in the future, and a very pleasant holiday to you 
and your family.
    Mr. O'Keefe. Thank you, sir. Appreciate your comments.
    If I could just comment very briefly on a couple of points.
    As we discussed, education is one of the areas that you and 
Dan Goldin I think did an extraordinary job emphasizing what 
kind of capacity and capability could be brought to bear in the 
education field at NASA and had resident right in the 
organization. I would view that as one of the primary areas we 
need to look at harder, how we could effortlessly make that 
available to members of institutions. I have three members of 
my home board sitting behind me.
    My strongest critics are my three kids looking at the 
website saying why is not it more interesting than this. The 
second one, I agree it is an objective you can reach back to 
the founding of the organization and say that is one of the 
real points that led to its development as early as the vision 
that was created.
    Having said that, what we need to do is develop a means 
within the capacity within NASA I think to become as agile as 
the industry is today. If you do not have a semiconductor chip 
that is ready for introduction at the same time you were 
introducing or beginning the development of another one, in 18 
months, the company will be out of business. That is the cycle 
we are on right now. Electronics, it is no more than a half-
life of 18 to 24 months. In the oil and gas business, 
exploration is a tenth of what it used to be 15 years ago.
    These are the kinds of trends we see in technology that we 
are not of exactly the same agility, we are not adding to that 
potential commercialization. If anything, we may be drawing it 
behind, and so as a consequence, that is a real objective to 
keep up with.
    How do you stay in that cutting edge? How do you take the 
risk of those opportunities that will in turn produce those 
spinoff commercial activities? And the last point that you made 
I agree with you entirely of looking at things like unmanned 
vehicles, is an opportunity to really collaborate extensively 
with the Defense Department in ways that could be very 
constructive for civil aviation, as well as military use.
    I think you have hit on three critical points and ones that 
wholeheartedly agree with.
    Senator Burns. There have been three inventions that have 
completely changed our lives, and it changed the way we think 
and the way we do business. And those three inventions were the 
silicon chip, before that, think what the invention of the 
transistor has done. It has been absolutely revolutionary as 
far as electronics are concerned, and of course, the jet 
engine. They all changed our lives, the way we look at things.
    I got a big kick of sitting next to a guy on an airplane 
and we were 5 minutes late getting into Minneapolis and the 
only thing he could do is complain about being late and here we 
are whipping through the air at 550 miles an hour and he is 
worried about 5 minutes. My gosh. Unbelievable.
    But those things have revolutionized the way we think and 
how we do things. And it is very important, so again, thank you 
very much and thank you for this hearing.
    Senator Wyden. The gentleman's 5 minutes has expired.
    I recognize the Senator from Texas.
    Senator Hutchison. Thank you, Mr. Chairman. I apologize for 
having to leave, but I wanted to return, because I wanted to 
ask you to address the issue of the 3-member crew as a long-
term permanent goal, or is your long-term permanent goal to 
increase the number in the crew so that we can do the research 
and how you plan to make the changes that would allow that to 
happen if it is your goal.
    Mr. O'Keefe. As it pertains to, again this International 
Space Station core complete objective now is to achieve that 3-
person astronaut capacity. Over time, I think with the Young 
Report, what it laid out was a path that suggests as a 
strategic objective to get that right, get the fundamentals 
correct, make sure that we understand what that is going to 
take in order to do that properly day in-and day-out, and then 
in turn, look at what the expansion opportunities may be, and 
at the end, that will dictate what the number will be, whether 
6, 7, 5, whatever the number is that is going to be driven by 
what the science agenda, the science priorities as well as the 
technology driven enterprise will demonstrate as being the 
necessity for that case then we will have to sort through it.
    As soon as we get the basics of what we have right now in 
place and being able to cover it responsibly in terms of all 
resources, people, assets, as well as dollars, that is going to 
be the first objective and then let us look at the expansion 
opportunities. We are going to do that. The strategic 
objectives or at least the larger glide path of the Young 
Commission laid out was something that really requires that we 
make that assessment within the next 12 to 24 months.
    It is going to be an ambitious agenda. I hope to come back 
to you to say yes, that expansion is feasible, because we have 
gotten that house in order and there is the following 
opportunities that would support that goal.
    Senator Hutchison. Is it your goal to have something beyond 
core complete for the long-term future?
    Mr. O'Keefe. I think to maintain what we have right now is 
an absolute bare minimum and calls to question what the point 
is. So as a consequence, it would be my fondest hope that we 
would expand beyond that, but only after such time as we 
demonstrate that we can do what we have in place right now.
    And I am not satisfied that is the case yet based on the 
data and the information we have all received from that 
Commission and also the forecast in estimating the costs we do 
not know. We just do not know.
    Senator Hutchison. I am reminded of an old series called 
``Yes, Minister,'' that was on BBC, and one of the series was 
about a wonderful new hospital and the Prime Minister visited 
the hospital and he was shown around and this new hospital had 
all of the state-of-the-art equipment and it was a fabulous 
hospital. And the Prime Minister said, ``this is wonderful. But 
where are the patients?'' And the answer was, ``Patients? Well, 
we do not have patients. That would just mess everything up.''
    Now, when I am talking to you about NASA, and all the money 
in the Shuttle program and 3-member crew at the station, 2\1/2\ 
of whom are necessary to do the running of the station, I am 
left with the feeling that we are going to have an operation 
that is there to service the operation. And that we could lose 
sight of the purpose of all of this, which is science and the 
research.
    So tell me that you are committed to making sure that we do 
not get into a situation where patients are just an extraneous 
luxury.
    Mr. O'Keefe. Yes, Senator.
    Absolutely. You are absolutely right. It is a case, what 
worries me more than anything else. I think just looking at the 
numbers and the way this has all rolled out in the past year, 
is if we are not careful, the capability costs, the 
infrastructure costs of the institution that is NASA will 
become the primary purpose. And that will be a tragedy.
    That doesn't fulfill what I think the President and Vice 
President's objectives are which is to really have a leading 
edge research, technology-driven enterprise that will take the 
risks necessary to carry out these extraordinary capabilities.
    So my view is that that is unacceptable condition if what 
we have at the end of the day is nothing more than the 
capability to demonstrate that we continue to have the 
capability. It becomes operations to support themselves as a 
self-sustaining purpose. That is not the point.
    If anything, looking at the overall, and this is just kind 
of a rough order of magnitude, I would say roughly two-thirds 
of everything, every dollar that is dedicated to NASA now is 
designed to support infrastructure and capability.
    The other third at most goes toward the science-driven 
objectives, the technology-driven objectives. As a percentage, 
that doesn't overwhelm me. It is not wildly off the mark, 
because in the electronics business, in the aerospace business, 
those direct, indirect ratios are not terribly off.
    It costs the aerospace industry about half of their expense 
to actually maintain capacity and capability to conduct 
business, and the balance of it is the cost of actual 
production of assets and things that are for sale.
    In this context, it is a little more than that, but 
uncomfortably so, because I can't look at those numbers and say 
that is an exacting percentage of it, but it is at least that 
two-thirds, at least, and that is something that grows beyond 
that. We have got real problems. In my mind, I want to be able 
to come back to you and say no, indeed, we are not going to be 
in a situation in which the infrastructure ends up consuming 
everything that is the resource.
    Senator Hutchison. If I could just say, I think you have 
gotten the message from everyone that I have heard speak this 
morning that we are looking to you to be the person who has the 
capability to implement a program that assures that the science 
and technology and experimentation is preserved and enhanced 
for NASA. I will look forward to working with you. I know all 
of us are going to be vitally interested in this, because we 
believe that NASA is a premiere success story for America, and 
it is the place where our new scientists have a capability to 
create. It is a huge task and if you are successful, you will 
be my hero. And if not, I will be all over you.
    Senator Wyden. You knew this job wouldn't be for the faint-
hearted.
    Mr. O'Keefe. Aspiration at least for the former.
    Senator Wyden. We are going to have a number of additional 
rounds, because of the interest of my colleagues.
    The Senator from Florida asked if he could ask a question 
then we will go back to the regular order.
    Senator Nelson. As a follow-up to the Senator from Texas, 
and again my hat is off to you for offering yourself to public 
service in this capacity, because it is a very tough 
assignment. And the fact that you have a personal relationship 
with the Vice President is considerably to your advantage, as 
well as to the advantage of NASA. So that you would have a 
direct pipeline to the White House. That is a strength that I 
think is substantial.
    But I want to follow up Senator Hutchison's question, 
because the answer that you gave did not sound like the answer 
that you gave on November 7th to the House Science Committee, 
in which you said that you did not favor a 10 to 15 percent 
increase in ISS funding to enable a 7 person crew until the 
cost considered as read credibility is regained. Yet you agree 
that you want an increased level of scientific productivity 
that could be accomplished later in the decade. I do not see 
how if you keep a 3 person crew today, and that will stay with 
us at least through 2006, how that is not going to severely 
limit--as Senator Hutchison has suggested, for the immediate 
future--that is another 4 years, the scientific activity on the 
station. Then once you regain the cost credibility that you are 
looking for, then it is going to take another 4-5 years to 
develop a 7-person crew return vehicle, and so the concern that 
I have as a follow-up is doesn't that push us off until about 
2010 in order to get any significant science up there on the 
Space Station?
    Mr. O'Keefe. Senator, I do not have the transcript before 
me of what was said on November 7th, but my recollection of the 
debate and discussion of Mr. Boehlert's Committee that day was 
that I do not, the fundamental premise, fundamental matter I 
think immediately before or immediately after that commentary 
was I do not have any reliability or confidence that 10 or 15 
percent is it either. I do not know what that number is. Not a 
clue. The mere factor over the course of the last 12 to 14 
months that the estimates for the program, and again, I think 
many Members have said this very aptly, this is a high-tech 
program for which anyone who thinks or pretends that there is a 
precision in cost estimating for something of this complex 
nature is kidding themselves to begin with. This mirrors just 
the very most high end systems integration program that I have 
ever seen. You are absolutely right. There is just no question. 
That is a fiction. But to be off by an order of magnitude of 20 
to 25 percent over the last year after maintaining a consistent 
position over the course of the last 5 years that was attested 
to, this is going to be the cost for the program attempted to 
speak some level of certainty that was never present. 
Therefore, I do not know that number 10, working assumption of 
the question that you extracted is that you would have 
certainty to achieve an expanded capability for International 
Space Station with a 10 to 15 percent increase. I do not know 
that working assumption to be true.
    Senator Nelson. What about the crew?
    Senator Wyden. I think we want to have multiple rounds of 
questions and have a chance to pursue this with each Senator 
getting 5 minutes. If you want to ask one additional question 
at this point, then we will go back to the regular order.
    Senator Nelson. I will do it however you want, but I do not 
want to break a train of thought, Mr. Chairman. So my question 
was what do you think about the 3-man crew and how can you do 
the science and when do you want to change that 3-man crew?
    Mr. O'Keefe. I want to remain consistent with the 
commentary, because I positively do not want to suggest there 
is a different thought in looking at this a month ago to now.
    Again, it is the same proposition which is let us get the 
house in order, the basics in order, let us get the fundamental 
baseline for International Space Station and we will submit 
that is an unknown. I concur entirely with Senator Hutchison's 
view, and the view you and I expressed separately when we were 
meeting yesterday. In and of itself to maintain capacity as 
core complete as we just discussed, you and I discussed 
yesterday that in and of itself to maintain just the 
operational capacity demonstrates that you have the operational 
capacity is not the objective. It is not what we had in mind 
when we started this program, and not what I think our 
understandings are with international partners involved.
    As a consequence, my fondest hope would be we could 
establish the fundamentals here, get this rebaseline, get the 
basics down and then start talking ambitiously about what the 
larger capabilities are going to have to be in order to make 
this the useful objectives we had when we started down this 
road years ago.
    Senator Wyden. Let me tell my colleagues again, there will 
be plenty of rounds of questions.
    Mr. O'Keefe, I want to note for the record, I think Senator 
Hutchison wasn't here, you basically said in 6 months, you are 
going to be in a position to have your arms around some of the 
tough financial issue. We do not have the 10-year kind of 
period. Mr. Goldin was there a long time, and this is going to 
be important that you get your arms around these financial 
issues to be able to respond to the questions that my 
colleagues are asking and that is why I asked it at the outset 
and I appreciate your candor.
    Let me ask you a question that has been central to this 
debate about how you strike a balance between pruning the fat 
and waste and at the same time, having scientific 
breakthroughs. If you look at the histories of the agency, it 
is often asserted when somebody comes in and goes after the 
financial and managerial mismanagement, it is asserted that you 
are threatening safety. That this is going to put at risk lives 
and that people will be hurt. Nobody wants that. That is why I 
said in my opening statement that I do not happen to believe 
that ensuring safety and shortening the timelines and having 
the breakthrough research that the country wants, I don't 
believe those things are mutually exclusive. I would be 
interested in your reaction to that comment that I have made, 
and how you would go about putting a focus at the agency on 
ensuring the research and maintaining safety.
    Mr. O'Keefe. Thank you, Mr. Chairman, for that very 
thoughtful question. I concur entirely with your assessment 
that they are not mutually exclusive objectives indeed. They 
can become very compatible. My bias, we are all a victim of 
whatever our institutional upbringing or backgrounds are.
    Mine is in having been raised by a nuclear engineer, I have 
been hearing about these issues since sitting around the dinner 
table to the point I have been wrestling with these questions 
as Secretary of the Navy with nuclear Navy concerns, that is a 
record of achievement that is flawless. In the course of 50 
years, a remarkable capacity to not only maintain perfect 
safety standards, but also to stretch the technology from the 
earliest Nautilus days in which a reactor half-life was 18 
months to the point now where every single reactor that goes to 
sea on a brand new ship is the size of a trash can and never 
needs to be refueled. That is a remarkable technological 
achievement in the power generation business. Absolutely 
stunning.
    As a result, in the same time, it maintained zealots, 
absolute complete zealots over the proposition of maintaining a 
perfect safety record and had done so. This can be a mutually 
compatible reinforcing set of objectives and it is one I think 
we could take some lessons not only from the experiences NASA 
has learned so painfully since 1986, but also to develop that 
cooperative kind of partnering arrangement, Defense Department 
in this deal as well. That is a bias I hoped you would bring to 
it.
    Senator Wyden. For this round I am going to ask one 
question about the Space Station, core complete design 
eliminates habitation model and crew rescue vehicle making our 
astronauts dependent on Russian partners for critical needs. 
How can NASA effectively manage its work on the Space Station 
given dependence on international partners?
    Mr. O'Keefe. Again, I think in the dialog with Senator 
Hutchison we have to move from just simply capacity or to 
demonstrate our operational capacity or to continue the 
operational capacity. Where we are at this point and I think 
our international allies expect, that there will be some 
understanding of what the original capability is going to be.
    We need to assure them, though, that we need to continue 
this program in a way that is responsible from a safety 
standpoint, from management standpoint, from fiscal standpoint 
and indeed we can establish the larger operational capacity and 
capabilities that were envisioned when these programs came down 
the road.
    Until then, the international alliance partnership will be 
looking for answers to those. I expect we have to provide them 
those solutions. In the meantime, my understanding from Dan 
Goldin is the relationships have never been better in terms of 
understanding precisely what the risks are.
    Senator Wyden. You believe we will comply with our 
international agreements?
    Mr. O'Keefe. My intention will be to work very closely with 
Secretary Powell, and to work with them to assure that we very 
carefully respond to those international alliance agreements 
and that we work together mutually between NASA and the State 
Department to assure we reach the complete alliance that we 
have had all along.
    Senator Wyden. When you are confirmed, and I am going to 
assure there is a rapid confirmation, when will you go to NASA 
and assume your administrative duties? I will tell you why.
    There is a great deal of speculation that when you are 
confirmed, you go through another budget round, people 
concerned about cuts will say ``he is going to slash us then go 
on down.'' When you are confirmed, will you head over there 
immediately?
    Mr. O'Keefe. Again, I can't foresee what the action of the 
Senate will be. My commitment to the President is at the 
earliest opportunity to assume whatever responsibilities he 
appoints me to upon the advise and consent of the Senate, so my 
hope would be as soon or as close to the beginning of the next 
year, the new year that I can be there within a month, but that 
entirely turns on the willingness of the U.S. Senate and your 
colleagues to consider the matter expeditiously and I will 
refer you jointly on that matter.
    Senator Wyden. I asked it that way for a reason. I am very 
impressed with your credentials. When you assume your duties, 
that in a sense may send a message.
    Senator Allen.
    Senator Allen. Thank you, Mr. Chairman.
    Mr. O'Keefe, NASA is currently working on a number of 
technologies, and some of the things we are talking about are 
important. You were talking about the commercial application of 
some of these technologies and this research and development. 
And some of these technologies certainly could help improve 
either the safety or the efficiency of aviation, including, for 
example, an economically viable and environmentally friendly 
supersonic airliner which would be used in transoceanic 
flights.
    They are working on advanced flight cockpits with synthetic 
vision which would enable pilots to fly in fog conditions or 
for safety in the darkness. They have improvements in air 
traffic management systems. All of these things are being 
developed, being researched. How would you see us working with 
you and those who have been formulating and actually getting 
these ideas into place that could actually have some commercial 
application? It is wonderful to have all these ideas and have 
these wonderful aircraft or these cockpits or these better 
systems for safety or efficiency. How would you envision us, 
let us say a Senator in the house, working with you so that we 
can benefit from them?
    Mr. O'Keefe. Again, my sense of the challenges of 
technology transfer which is really what this is about, because 
in the end of the day, if there is any opportunity for 
commercial enterprise, to develop any asset, any capability, 
anything that they think can be sold for profit, then we 
certainly should do everything we possibly can to encourage the 
industry to do that, and not just simply to perform it.
    In this context, it is a technology transfer policy that I 
think ought to dominate by the notion we talked about a little 
bit earlier, which is that the sooner we adopt the same view in 
the public sector, and within research institutions, again, an 
asset elsewhere, defense, research, projects, as an absolute 
core that we are at least going to parallel, if not exceed, the 
technology advances that have characterized the aerospace and 
electronics industry in recent decades, last 10 years. Until 
that time where we consider that as an absolute, we are not 
going to have much to transfer, or to the extent we had a 
transfer, we looked at it saying it is mighty fine previous 
generation assets or capabilities. I think that is essentially 
one of the problems that your point raised is we have had such 
a recent technology regime or framework as a policy that 
typically what's occurred is about time we are prepared to 
release it, the industry has moved past it and it no longer has 
the ability to have drawn that much from it.
    The philosophy where we can work together most in the area 
of technology transfer is try to break down those barriers that 
would otherwise be in place that would impede the transfer of 
technology at the earliest possible opportunity to the extent 
it is cutting edge and desirable on the part of the aerospace 
electronics industry.
    Senator Allen. These ones that I specifically mentioned are 
far ahead of where they are at this moment and we are going to 
have to find ways for them to upgrade. Obviously some of those 
decisions by the commercial sector will be determined by their 
own bottom lines and what they can do to upgrade their own 
systems and how it makes a difference in their bottom line as 
far as more passengers or greater safety for their planes.
    I just wanted to conclude, Mr. O'Keefe by saying I have 
enjoyed listening to you and hearing your ideas. I think the 
best thing that I have learned from this hearing which you 
cannot read from answering questionnaires or reading articles, 
is that you have a sense of humor. I always think it is 
important for people to have common sense and that they keep 
their promises, but it is also important in addition to having 
thick skin and a sense of humor. You are going to be needing 
that sense of humor. I hope, Mr. Chairman, we act on this 
nomination as soon as possible. This is an agency that has been 
led by Mr. Goldin for many years. I think an agency like this 
needs leadership. Lapses in leadership do not help.
    All that does is create uncertainty amongst this dedicated 
group we have across the country. I look forward to working 
with you in the years to come.
    Mr. O'Keefe. Thank you.
    Senator Wyden. The Senator from Florida.
    Senator Nelson. Thank you, Mr. Chairman. I certainly yield 
to the Senator from Texas. Please. You go ahead.
    Senator Wyden. The gentleman is completing his second 
round, then we will go to you.
    Senator Nelson. If you are in a time constraint, please 
feel free.
    Senator Hutchison. If I could, I appreciate that so much.
    Senator Nelson. Absolutely.
    Senator Hutchison. I wanted to follow up on a couple of 
questions that the Chairman asked. First, on the Russian 
vehicle as a lifeboat. The Chairman pointed out that that is 
our lifeboat and we are relying on the Russian Soyuz today.
    NASA has had plans for its own rescue vehicle which would 
require us going beyond core complete, and I want to ask you 
how important a priority it is for you to determine how safe it 
is and, to rely on the Russian Soyuz and to determine if we 
need to move forward on our own crew rescue vehicle as a top 
priority?
    Mr. O'Keefe. I appreciate that, Senator. I think that is 
going to be among the first order of magnitude questions that 
really have to be wrestled to the ground. Once again, 
International Space Station program fundamentals are restored 
or re-baselined. I think that is a real tough one. I do not 
know the answer to that question. I am not sure exactly.
    Senator Hutchison. But it will be a priority for you to get 
right to it, because if you determined that it needs to be a 
priority moved up, then you can put that in your budget 
submissions and, because it is important to me to know that you 
have looked at that and made the determination here to go 
forward with our own crew rescue vehicle or that Soyuz is safe 
for the time being.
    I just wanted to follow up again on the Chairman's point 
and then I will let Senator Nelson go forward, because I 
appreciate his deference. I wanted to clarify your answer to 
the Chairman on when you would take control of NASA once the 
Senate has confirmed you. Did you say that it would be no 
longer than 1 month after confirmation that you would expect to 
be at the helm of NASA?
    Mr. O'Keefe. No. It would be my fondest hope that I would 
be there as soon after the new year as conceivably possible. 
The board of directors sitting behind me, I have an expectation 
of leaving town between Christmas and New Year's and 
anticipating the Senate action.
    Senator Hutchison. If the Senate acted before we leave next 
week and you have a well-deserved family vacation, then would 
it be your intention to immediately go to NASA and take 
control?
    Mr. O'Keefe. Yes, Senator.
    Senator Hutchison. Thank you very much.
    Thank you, Mr. Chairman. Thank you, Senator Nelson.
    Senator Nelson. I want to follow up Senator Hutchison's 
questions about the lifeboat of the Soyuz, and there is some 
talk that in doing the delays on an American lifeboat that you 
might employ the Soyuz. What's your thinking on that?
    Mr. O'Keefe. I don't know, sir. It again, has to be among 
the top things we have to consider in the applications after we 
get back to basics and the fundamentals of the International 
Space Station already established.
    Senator Nelson. What about this report in the Orlando 
Sentinel that they are threatening to pull out, because of the 
propensity to scale back the lab. They are obviously being put 
in a very difficult situation, so what is your thinking at this 
point about how we go about assuring our international partners 
that they will have the full utilization and at the same time 
to handle all in your management of cost?
    Mr. O'Keefe. My first order of business on this very 
question is to consult with Secretary Powell, and my good 
friend, Deputy Secretary Armitage and to determine what our 
appropriate alliance response to be to them in working through 
this. But beyond that, just running aground this latest 
development, which I am not familiar with the details of, other 
than having read the press reports or heard them as well, and 
find out what the nuance of them are all about. I would not 
want to do this in isolation from the very sound judgment that 
I am certain my friend Secretary Powell and the Deputy 
Secretary use.
    Senator Nelson. This report is the latest reflection of 
considerable agitation among our international partners, of 
which there has been circulated in the NASA community a letter 
from the Canadian government, which is at least a month old, 
stating that the United States has breached its agreement. How 
do you, other than conferring with Secretary Powell and 
Secretary Armitage, how do you go about solving a problem if 
you have not got room for them to get up there on the station 
unless, in fact, you move to develop the technology to allow to 
you have more than 3 on a station?
    Mr. O'Keefe. Thank you for that very thoughtful question, 
Senator. Beyond the opportunity to consult with those seasoned 
diplomats which you have just now dismissed as an opportunity I 
have got to start with, but I do intend to agree with that. I 
have got to be careful how we work our way through this. 
Because my understanding of the international agreement says 
that we sought to establish a set of objectives to be achieved 
by the year, I believe, 2006.
    Now, if that is the essence of it, and that is a challenge, 
and I think we need to take it on, that over the next 5 years 
to achieve those results that we signed up to as I understand 
it, and that is a limited understanding of those complex 
international agreements, I have really got to be guided by 
diplomatic counsel from those two folks I trust a lot in these 
matters, and I think they understand those in a way that I do 
not. I do not want to give you a misleading response to that. I 
have given you the barest fundamentals of my appreciate and 
would not want to be construed as committing beyond anything I 
am just not aware of at this point. Thank you for the question, 
Senator.
    Senator Nelson. Since our role constitutionally is to 
advise before we consent, may I respectfully advise you that 
the two gentlemen that you mention happen to be two of the 
finest appointments in the Administration. I have had the 
capacity as a member of the Foreign Relations Committee to get 
to know them. I have enormous respect for them, but they are 
not going to answer your question.
    The question is going to have to be answered as a 
management decision by NASA. Of whether or not you are going to 
move to a position of whether you can have more than 3 and set 
a goal of when it is going to be and then work it out with your 
international partners. That is going to be the solution to the 
international partners' agitation. And that is why I asked you 
the question about whether or not as an interim solution do you 
buy a second Soyuz and try to fix it some way up there where it 
is docked if you cannot spend the money to do the 7-man 
lifeboat. So those are hard choices you are going to have to 
make.
    Mr. Chairman.
    Senator Wyden. I thank my colleague. A few additional areas 
that I want to focus on. One that I think we just need to be a 
bit clearer on is the research agenda and how it is going to be 
determined. What are the processes, the structure that you are 
going to follow for making decisions about the research agenda, 
for example, who are you going to seek input from with respect 
to research. We have touched on it throughout the morning, but 
I would like to come back to that and have you set out clearly 
how you are going to pursue this.
    Mr. O'Keefe. In the very near term, the two primary 
sources, I think, of advice or what that research initiative 
should look like or what its priorities should be proposed of 
will first and foremost come from a review that is ongoing and 
is about to be completed here in the early part of the next 
calendar year. That is going to summarize, I think, the 
objectives and understandings of the 10 centers of excellence 
that have focused their research priorities in ways that are 
being accomplished today, as well as future aspiration.
    Second one again is, I really want to take advantage--to be 
blunt about it--the opportunity to avail ourselves to the 
public of the expertise of the Nobel laureates that Tom Young 
amazingly managed to attract to his Commission. And they have 
been willing and volunteered to make themselves available to 
opine and offer thoughts about what the priorities and the 
feasibility, as well as the practical capacity of the research 
agenda and what those priorities are going to look like to us 
in that context. I am hopeful to take both of those 
institutional and more formal arrangement as well as a more 
informal one.
    I am confident there are going to be more foreign intrigues 
that will be offered as well. Those are the two I can think of, 
though.
    Senator Wyden. Human space flight is certainly the most 
visible of the programs. Obviously, there are other programs in 
science and technology and aeronautics. How would you go about 
striking the balance between human space flight and the other 
responsibilities at NASA?
    Mr. O'Keefe. I think the difficulty that I see right now is 
that decision may be preordained if we are not careful in the 
management of the current programs, because as the continued 
efforts on International Space Station and the increases 
unfold, to the extent that there is not a commensurate resource 
adjustment either by adding resources which are scarce, or 
within the capabilities of the overall scientific agenda that 
the national agenda pursues, we can end up with a preordained 
conclusion of what that is and that won't be all that valuable 
to what would occur if the increases per system as we regard 
continues to consume a larger and larger percentage than what's 
involved. So we will end up with a mathematical result that is 
not guided by any management choice, but more by consequence. 
That is the area I fear most.
    On my fondest hope, Mr. Chairman, is the opportunity to 
come back to you at some stage in the very near future and be 
able to say yes, we think we have got some fix on what the 
overall resource demands are of all dimensions of the NASA 
portfolio, and now let us talk about what that priority 
distribution ought to be. Until then I kind of feel like we are 
getting driven or riding the crest of this wave that we have no 
control over at this point.
    Senator Wyden. I am not completely clear, either where you 
believe human biological science fits as part of the Space 
Station project either. Could you set out clearly where you 
stand on that?
    Mr. O'Keefe. Again it is a hunch. It is not informed 
judgment or decision. Let me just offer again personal bias of 
what I think is capability here. The limited amount that I know 
and have read and understand to be some of the remarkable 
discoveries as a consequence of conduct of experiments of a 
medical nature and health focus, on Space Station and in that 
atmosphere, that unique environment that we could not feasibly 
do under any other circumstances were it not for the capacity 
we have, have been remarkable, astounding to those who are 
informed within that scientific community. And that is enough 
to impress the likes of people like me to say yes, indeed, that 
has to be then viewed as a focus or priority that if we can 
achieve those kinds of outcomes that can advance and provide 
the leap ahead breakthroughs in that field, that that is 
something you want to advance on, and it meets the criteria I 
talked about in the opening statement. You refer to it in your 
covenants, I think there has been a general consensus on that 
says that is where we are going to be focusing our attention as 
this leap ahead rather than linear incremental kind of advances 
that are in the corporate process.
    Senator Wyden. Let me ask you about one other area. I want 
to recognize my colleague. As you can see, he and I have a 
number of areas we want to explore, and I pledged that we 
wouldn't bring in the corn flakes for breakfast. We have a few 
more areas we want to look at.
    One additional that is been important to me is 
understanding how the Bush Administration is going to approach 
overall space policy from the military, civil and commercial 
side of this discussion. The Administration has stated how 
important it views a space-based national missile defense, for 
example. President Eisenhower's desire to separate military and 
civilian space activities led to the creation of the agency, 
but the Defense Department retaining control over military 
space programs.
    Tell us, if you would, what is the Administration's overall 
space policy for military, civil, and commercial space and who 
in the Administration is going to go about coordinating these 
various areas?
    Mr. O'Keefe. First of all, this is not going to be a news 
flash. I am not going to create new Administration policy. What 
I can tell you, though, and what I am committed to as a 
personal bias is a much closer collaboration of partnership 
with the Defense Department on the larger national security 
agendas in places in which we can utilize infrastructure that 
neither department would have to duplicate. I don't see that as 
terribly efficient to have redundant capacity for this really 
unique set of capabilities, and there are ways I think we can 
capitalize on those advantages without breaching the spirit of 
the divisions that were fought in the Eisenhower era.
    As far as how we are going to refine this, I have had the 
opportunity to talk with a good friend on the National Security 
Council staff where we lamented that, prior to September 11, we 
were heading toward a series of definitions of what the 
Administration space policy in this regard would be, commerce 
and military applications, it was completely short circuited as 
a consequence of 9/11 and held in abeyance. I have tremendous 
enthusiasm and great familiarity with the NSC staff, as well as 
principles involved in that to regenerate that, reinvigorate 
that debate, bring it to the floor, put it on the front burner 
as soon as we can as soon as we start working the day-in and 
day-out challenges.
    Senator Wyden. You said it is going to be a closer 
relationship. What do you think are the proper relationships 
between aerospace and defense?
    Mr. O'Keefe. In development it is essential in terms of 
working out requirements for capability and need that lift 
capacity. I think you and I talked a little bit privately the 
other day about the history that I think I find really 
unsettling, of conflict between the Air Force and NASA that 
existed on the order of about 15 years ago, at the time the 
Shuttle was developing in a large way and viewed at that time 
as being a potentially commercially cost-efficient effort that 
would also be confounded and cost competitive with heavy lift 
as well as expendable launch vehicle capacity the Air Force 
maintained. It created an enormous rift between those two 
institutions as a consequence of modest design changes in order 
to avoid accommodating the other institution.
    I found that to be really objectionable and something we 
ended up as taxpayers, I think, paying a lot more for redundant 
capacity that had there been a closer cooperation would not 
have been as attractable as it was. That is an area where we 
can avoid problems and do those things together, especially 
with the strategic launch initiative at NASA as well as 
comparable efforts at Defense in its formative phases right 
now.
    Senator Wyden. Do you foresee the Administration, Mr. 
O'Keefe, formally issuing a new space policy, and if the answer 
is yes, I would be interested, for example, on how that would 
differ from the Clinton Administration?
    Mr. O'Keefe. Again, I do not want to preordain that answer, 
because as I mentioned just very recently talking to very good 
long-time friend of mine from the National Security Council 
staff, as we mutually lamented the fact that prior to 9/11 we 
were heading toward resolution or at least debate of what would 
be the composition of such a policy. I think there is 
enthusiasm for putting that back on the front burner at the 
earliest opportunity, likely behind certain early summer or 
spring would be the period which the NSC, particularly through 
the deputy's committee which I have been privileged to be a 
part of for the past year or so to vet through these issues to 
determine what the essence of the space policy is. I do not 
want to forecast what that outcome would be, because I frankly 
do not know how that is going to change in the aftermath of the 
events.
    Senator Wyden. I will have a few additional questions.
    The Senator from Florida, you have been very patient.
    Senator Nelson. Mr. Chairman, please continue on. It is 
just the two of us.
    Mr. O'Keefe. Senator Nelson, I am still here.
    Senator Nelson. Please interrupt any time, and I welcome 
you to interrupt any time. Earlier, you said that you would 
consider as a result of the Young Report, the reduction of 4 
flights a year. This is a considerable concern, because it was 
at this very table that in September we had a hearing on Space 
Shuttle safety and unanimously all of the participants in the 
hearing, which included both inside and outside NASA, said if 
you are going to fly the Space Shuttle, we are going to fly it 
safely and that was the No. 1 priority.
    What I'd like to know is before you would make such a 
decision, will you come and report specifically to Congress and 
seek our advice?
    Mr. O'Keefe. Positively, Senator. Any opportunity to 
consult and discuss with you, your colleagues those that are 
interested in this program is always to the advantage of the 
program, the Administration, to you, and to me. I pledge to do 
that. That will be an objective on the regular basis to the 
point you will tolerate those inquiries.
    Senator Nelson. And in making such a decision, will 
external independent groups or NASA conduct an analysis on the 
impact?
    Mr. O'Keefe. I think it certainly would be a likely 
condition. I do not know what barriers there would be to doing 
that, because every time I turn around, I am constantly 
astounded by the problems that it takes in bringing in external 
point of view in a variety of decisions like this, because what 
really is distinctive and I think you'll appreciate this about 
the Young Commission is they are looking in a larger strategic 
framework. Once you start getting into business case issues and 
the requirements for dealing with a business plan on how you 
would conduct something, the Competition Contracting Act, all 
kinds of neat things suddenly come into play, so I would not 
want to give you or mislead you unknowingly to what I think are 
real rigid administrative barriers for the use of external 
capabilities when you then start getting down to real 
implementation decisions that have contract implications. So 
that would be my intent, but be guided by what the legal 
limitations would be that typically guide such questions.
    Senator Nelson. I just want to express as part of our 
constitutional role of advising, if you look at this decision 
and the Young Report through the prism of a mindset of OMB, 
there is going to be considerable risk to the space program, 
because such a decision, for example, on reducing to four 
flights per year means that there would be a considerable 
layoff of the workforce, particularly at the Cape, at the 
Kennedy Space Center, the finest launch team in the world. 
There was a period within 12 months that they launched 8 
Shuttles. That is nothing short of miraculous and heroic. And 
such a financial decision to reduce the launches to 4 would 
mean a considerable layoff of that expertise and then when the 
time comes and it surely will, that we start to ramp up, you 
lose a lot of that ability, and you have seen that kind of 
hurky-jerky kind of approach in the past has not served us 
well.
    So as Senator Hutchison says, if you start moving in that 
direction, not only will she be all over you, but I will too. 
Because the bottom line is going to affect safety, and that is 
one of the most dangerous points of the whole Shuttle mission--
the launch. There is no room for error, and when there was, we 
got caught. And we found out that the risk factor was 1-in-25. 
They say it is about 1-in-450 now. And if you will do Shuttle 
upgrades, they can move it up to 1-in-1,000, significantly 
increasing the safety factor, but you cannot do that if you 
start reducing your flight rate to 4.
    One of the things that I think you ought to consider also 
in view of the war on terrorists is that you have to have this 
vehicle as reliable assured access to space to back up your 
expendables. An Atlas sits out there on the pad. Its weight is 
supported by its fuel. It is an easy target. And you could go 
on through a number of the other expendables and their launch 
pads that have to be operable, and so if you are looking at 
assured access to space, there cannot be any mistakes with 
regard to the Space Shuttle.
    Mr. Chairman.
    Senator Wyden. I thank my colleague. Let me ask one other 
question with respect to the Space Shuttle, Mr. O'Keefe. What 
role do you see the Shuttle playing for future NASA space 
transportation needs? We have begun to look at balancing the 
need for safety upgrades versus the various other needs. I 
think it would be helpful to know what role you see Shuttle 
playing for future space transportation needs.
    Mr. O'Keefe. Again, I think the original objectives as 
Senator Nelson says, he is steeped and understands very clearly 
what the greatest aspirations at what point the Shuttle was 
conceived and developed and ultimately deployed was to provide 
a viable commercial alternative, an opportunity in a way that 
would provide the launch capacity for satellites and electronic 
systems and a lot of experimentation in a range of technology-
driven enterprise and science-driven agendas, but again, it was 
envisioned to be a real serious alternative.
    It hasn't achieved that objective for a variety of reasons. 
I think there is all kinds of logic that got us there, as well 
as the difficulties of operations that have motivated that, but 
I think anything you can do to maximize the utility of the 
Shuttle operation in its capacity which is really quite 
remarkable in and of itself is to be desired and to be pursued. 
So in that respect again, that is what augers in favor of the 
closer cooperation with Defense Department, with a range of 
different agency interests that would be involved there, and to 
look at some of the other potential commercial attributes that 
we could establish on a more cost efficient basis. As soon as 
we could get that on footing, the closer we are and the closer 
we will be to answering in a more affirmative way the question 
we posed.
    Senator Wyden. Let me turn now to the question of 
privatization, and particularly, privatizing the Shuttle. You, 
as I understand it, are on record as supporting the further 
privatization of the Shuttle and other programs.
    Privatization means different things to different people. 
And it can mean contract consolidation. It can mean giving the 
Shuttle away to one or two companies. What are the limits in 
your view of privatization?
    Mr. O'Keefe. First of all, there are, in fact, wide ranging 
definitions, and my endorsement and enthusiasm for this is very 
much in the context of the President's management agenda, the 5 
essential elements, competitive sourcing is one of those 5. And 
so the opportunity, any opportunity to achieve competitive 
sourcing alternative for government operations is an essential 
element of what he expects every department and agency to be 
pursuing.
    Limitations I think you point to with BRACC are the 
industry configuration, how it is conducted, what you currently 
have is a series of important contractual commitments that are 
conducted through a partnering arrangement between 
corporations, how that all sorts out and what those limitations 
may portend, that is something I really have got to get greater 
or more in-depth legal advice in terms of what those 
applications may portend.
    Similarly, there are capacities and capabilities that 
Senator Nelson very appropriately points to that are resonant 
within the science and technical community within the 
government as part of our public management team need to 
attain, so in that regard, try to sort out those two really 
important questions and a myriad of other secondary points or 
would lead to a more informed answer to what are the limits to 
privatization or more to competitive sourcing, but as a generic 
proposition, I am there and I think it needs to be pursued and 
it is not just a case of saying well, we will eventually get 
something that says it involves answers to those points, but I 
intend to be committed to pursuing that immediately.
    Senator Wyden. If the Shuttle is turned over to the private 
sector, how do you go about ensuring that NASA gets the things 
it needs at those prices?
    Mr. O'Keefe. The answers to the first questions will flow 
once you know the answers to the second part.
    Senator Wyden. What is your sense in the next few years 
with the Shuttle? What is likely to happen in the next few 
years on privatization in the Shuttle?
    Mr. O'Keefe. Again, I think we have to start this due 
diligence in the way that first looks at the legal implications 
of current contractual commitments between the partnering 
companies that would evolve specifically in current operations. 
The second is to look very specifically at what the 
implications are to the resonant in-house public scientific and 
technical community would retain. What alarms me very much in 
the spirit of Senator Nelson's observation, better than half of 
the science, engineering and technical staff at NASA throughout 
the organization will be eligible to retire within the next 3 
to 5 years, better than that.
    That tells me that we really need to be focused on the 
essential elements of the presence, management, agenda of those 
5 is strategic management of human capital.
    We need to do it here. It is a case where that whole 
generation, Apollo era, entrepreneurial, innovation and 
creativity is about to retire, or it is going to be eligible to 
fairly soon. As a consequence, trying to find out how you 
reinvigorate that spirit through the personnel management and 
resources objectives, is going to be that second order of 
magnitude. Once you get through those two issues, it gets to 
the larger points.
    Senator Wyden. One other international issue that is 
important to me. As you know, China successfully launched 
unmanned space ships in 1999 and 2001. It is our Subcommittee's 
understanding that China is going to send a manned craft in 
space before 2005, and preparation for a mission to the Moon is 
underway. Should Americans be concerned about our continued 
access to space? What is your opinion with respect to these 
developments in China and the space area?
    Mr. O'Keefe. I am not sure what the impact or the 
consequences are to the intelligence community, to the larger 
security. And so therefore to opine or offer any thought on 
what those implications would be would be either uninformed or 
misinformed at best.
    Senator Wyden. I have just a couple of additional 
questions.
    Does the Senator from Florida have any others?
    Senator Nelson. Yes, Mr. Chairman. I'd like to follow up on 
your questions about privatization. As part of our advice to 
you, the Shuttle is not an operational vehicle. It is still a 
research vehicle. Now, you say that you are in favor of 
privatization. I understand your general philosophy. Does that 
mean, for example, that the Shuttle would start launching 
commercial payloads?
    Mr. O'Keefe. Again, I really have to be consistent here, 
Senator, because you clearly demonstrated an interest in seeing 
that consistency, and failure to have transcripts in front of 
me, previous testimony, I am going to make absolutely certain I 
stay consistent, at least in this game. I have a clear 
understanding of what the President expects in his present 
management agenda as it pertains to competitive sourcing. I 
intend to pursue that in every degree of enthusiasm I have. 
This falls into that category as an example of how it may be 
pursued.
    There is application across every Federal department and 
agency and this lends itself very neatly to those larger 
objectives. The specifics of your question is something I would 
need to sort out to understand the implications of the 2 facets 
I explained previously, which are what the contractual 
implications are for the partnering arrangements that exist 
under current Shuttle operations contracts, and they are not 
research vehicle operations. They are Shuttle operations 
contracts with independent companies that I do not know the 
legal implications of and I need to be better informed of.
    Second, we need to be positively absolutely committed as 
part of the President's larger objectives to be sure we are 
focused on the strategic management of human capital and we 
know what the implications will be if we choose to remove or 
defer capabilities that are currently resonant within the 
technical and scientific engineering. Those two, I think, need 
to be consulted first before I could ever get to the stage of 
responding. But as a general philosophical matter, those are 
driving principles.
    Senator Nelson. Well, so that as you would be trying to 
conclude that, let me put your initial consideration of this 
question of privatization in the context of what has happened 
in history. The Space Shuttle was developed to be the space 
transportation system. And when Challenger exploded, we 
realized that the mistake was that we were trying to make it be 
too many things to too many people.
    And thus the policy decision, and this was during the time 
of the Reagan Administration, was that the commercial payloads 
could best be launched on expendable booster rockets, and that 
you would save the Space Shuttle primarily where you did the 
human in the loop, thus the scientific experiments, space 
telescope, and therefore, on the manifest, any of those 
commercial payloads, they finished those, but they did not redo 
them. Likewise, on the DoD payloads, although there was still 
that capability as a back-up.
    What I am afraid of is that there is this preference for 
privatization that does not apply to a scientific vehicle, and 
so I raise again the question that you will have to consider in 
the future, which you say you cannot address now, does 
privatization mean a return to commercial vehicles? If so, that 
is a tremendous change in policy for NASA. Does it mean just 
commercialized research payloads?
    And if you move to the so-called privatization, well, what 
about all the ground infrastructure? Does it all get 
privatized?
    There is a substantial amount of expense of all of that 
stuff that goes along the space program, some of which by the 
way we have been trying to address and some of these 
appropriations bills, you know, the VAB has panels peeling off 
of it, Lord help us if a hurricane comes through there. We have 
gotten a lot of that corrosion that is going on down there in 
the Cape from years of salt spray and so forth. How is a 
private company that is going to be incentivized to redo all of 
that under a contract that they have to operate under specific 
cost, so I want you to arch your eyebrow as you approach what 
the President has given you as marching orders when you are 
dealing with a research vehicle and a research program like 
this, you may not have gotten this through your lens at OMB.
    I suspect that you would have gotten some of this from your 
experience as controller of DoD, and as Secretary of the Navy. 
And I think you are going to have to put on some different 
glasses.
    Mr. Chairman.
    Senator Wyden. I thank my colleague. A recent press report, 
Mr. O'Keefe said, and I will just quote here: ``NASA also hopes 
to land two unmanned spacecraft on Mars, launch a number of 
Earth observing satellites and a new space telescope in the 
next couple of years.'' Sounds awfully good. Awful lot of us 
science fans and Americans. Pick each one of them?
    Mr. O'Keefe. First of all, as a method of fundamental 
management, hope is not a method. Planning on this as 
expectations is just I think we have got to demonstrate to 
ourselves, satisfy ourselves indeed these are achievable 
objectives and given the circumstances right now, I think 
everything has to get back to basics. We really have to look at 
the fundamentals. Again, this is not an overwhelming challenge. 
This is not something beyond the scope or without parallel in 
any other circumstance.
    There are models here. There are a variety of approaches 
that can be followed. There are management methods and 
approaches that can yield results we are looking for, but they 
have to be attended to and so as a consequence, they would 
achieve the kind of forecast that you are talking about, that I 
know is part of the fondest expectation is something I think 
once we look at fundamentals, get back to the basics, and 
determine whether or not we can do all of this, that will then 
inform what approaches we will take for this portfolio.
    My fondest hope is that we get there.
    Senator Wyden. I have one last question. I am struck that 
as we look at the scientific possibilities, the excitement 
always come back to showing that you can liberate funds from 
areas that are either low priority or administratively 
inefficient, and that debate certainly starts with the Space 
Station, but there are a lot of other parts to it. Perhaps what 
symbolizes it for me is when you came as Deputy Director of 
OMB, you told the House Appropriations Committee that there 
would be a cost overrun of $4 billion on the Space Station and 
then a few days after the hearing, NASA came back and said the 
figure was more than $800 million or more than that, and I 
assume actually would like to have you comment on, I assume 
that one of your top priorities is going to try to restore the 
credibility of NASA with respect to estimating these future 
cost questions.
    Mr. O'Keefe. Lest there be a view that there is group think 
that exists at OMB, I regret to advise that shortly after that 
increase, after having just testified to what was the scope of 
the increase a matter of weeks before, it was referred to in 
rather indirect terms as the ``O'Keefe bump,'' which was not 
the most amusing element of my career experience.
    That is for sure. But it was, in the context of saying and 
reminding us that we shouldn't have any more confidence in this 
set of rules than the ones that preceded them.
    That is the part that really concerns me most, because it 
is, I think, all of our fondest hope that this is it. Having 
said that, there is nothing that raises my confidence now that 
suggests that is something we can take to the bank. As a 
consequence, I do not want to rely on that as a management 
informed decision until we can really assert to that with any 
confidence that we can suggest we should. So that is it.
    I think what that translates to in parallel we talked about 
a little earlier of again just kind of a thumbnail sketch of 
what constitutes roughly two-thirds of the current resource 
configuration dedicated to indirect costs, maintenance of 
capable infrastructure capacity and the other third, at most, 
is dedicated toward the pursuit of projects of excellence of 
technology-driven enterprise.
    If those numbers change, those percentages become more and 
more consumptive on the indirect side as a consequence of newer 
discoveries of what may be the latest estimate on overruns for 
the station. That consumes the other part of this equation, 
because last I checked, there is not an awful lot of enthusiasm 
here, any element of Congress saying here's the blank check, 
spend it like you think you need it. That would be 
irresponsible on the part of Congress. The President certainly 
doesn't endorse that. That is not a position we have adopted or 
would we encourage be adopted.
    Senator Wyden. Well, and clearly to make the case of 
additional funds, you are going to have to show that you are 
making better use of current dollars, given they are citing one 
inefficiency after another.
    Mr. O'Keefe. I consider that an enormous challenge.
    Senator Wyden. I know Chairman Hollings feels very 
strongly. We are going to get you confirmed as quickly as we 
can. I think you have the potential to really be a man for the 
times and to show that by cutting some of the massive overhead 
and the inefficiency that you can help the agency reach the 
stars. I am excited about the possibilities on your watch. As 
you can see from my colleagues today, we had a spirited debate 
this morning. It is not close to what you are going to have 
when----
    Mr. O'Keefe. Once I get there.
    Senator Wyden. It is not close to what you are going to 
have as you try to make what I call the transition back to the 
agency's original mission. I think that is what this is all 
about is to take out the original charter for a science and 
research-driven kind of mission and then as you have described 
it, go out to the Senators and scientists and various 
communities that are directly affected by this, and then bring 
to Congress an agenda that we can rally and promoting a kind of 
development to breakthrough technologies and historical 
scientific developments that are so important.
    Mr. O'Keefe. I take this very much as a preview of coming 
attractions. There is no doubt about it. The expectations are 
very high. I think that is a great challenge, one that I look 
forward to. But I take solace in Senator Nelson's opening 
statement, as a matter of fact, a few hours ago that there was 
one of the greatest administrators of our history, storied 
fabled historic place was James Webb and I concur entirely. I 
think he was just a remarkable fellow who wrestled with exactly 
the kind of issues we are dealing with here and I hope that the 
parallel that has greatest resonance is that he served as 
Truman's Director of the Bureau of the Budget, predecessor at 
OMB from 1946 to 1949. I see his picture every single day. As a 
consequence, that is a constant reminder to me that there are 
messages and methods in management process that can be employed 
here. If I do this a fraction as well as his incredible legacy, 
that will be a notable achievement and it is one that I take as 
a charge, Mr. Chairman, your commentary on how to go about 
doing that. I am hopeful as well.
    Senator Wyden. Before I turn this over to Senator Nelson, 
let me also recognize that we have had a terrific fellow come 
over from the NIST agency, Kevin Kimball. I hope his folks are 
watching this from C-SPAN. He has just done a terrific job for 
the Subcommittee, particularly on getting us ready for today's 
hearing. I am going to turn this over to Senator Nelson and 
also thank him for all his expertise. I think the Senator 
knows, I am going to work very closely with them and we are 
going to get on these issues and put the kind of focus on it 
that allows us to promote the kind of science that the Senator 
from Florida is advocating.
    I thank you again, Mr. O'Keefe. We look forward to your 
rapid confirmation.
    Let me turn the hearing over to Senator Nelson.
    The Senator from Florida.
    Senator Nelson. We will wrap this up pretty quick, Mr. 
Chairman.
    Just to comment going back about the Young Report and 4 
flights a year. Not only would it have the affects of what I 
was talking about in all of the layoffs, but it would also have 
the affect of very likely moth-balling at least 1 of the 4 
orbiters, and that is going backwards. That is not going 
forwards.
    Let me talk to you briefly about the space launch 
initiative. We discussed this last night in our conversation. 
The Shuttle upgrades funding has been minimized, and under the 
present plan will no longer be funded after 2005 based on 
NASA's current plan to shelve the orbiter fleet by 2012, 
because in NASA's budget plan we have about $5 billion for this 
thing called space launch initiative, which is really a 
development now of technology, so tell us what you believe 
about this space launch initiative as it's currently planned 
and funded. Do you think it is going to result in the 
replacement of the Shuttle by 2012?
    Mr. O'Keefe. First of all, they are going to get a lot more 
informed of the mechanics of the Space Shuttle. In its earliest 
stages of development, this is again a golden opportunity to 
reach a very close collaborative and cooperative arrangement 
with the Air Force specifically, with the Defense Department 
over how we could look at what those objectives are. I think 
your commentary as well, you recognize that the goals and 
objectives we had in mind as Americans for Shuttle and pre-1986 
and for all the reasons I concur were not realized that you 
have assessed, this is a good time to go back and revisit some 
of those things, to think seriously about the kinds of 
important questions you have laid out of commercial 
applications, as well as a range of other alternative uses. 
They do not want to inform what it is we are really driving 
toward and it ought to be the objectives.
    So I think that is rather than articulating some bombastic 
vision of what I would hope it would be born of nothing more 
than fantasy, I need to give you a more informed view after 
looking at what those questions are, as well as looking back 
again to the period of time that kind of revisits what we had 
in mind for the Shuttle that we thought was an informed view 
and see if we can do better.
    This is the kind of maturation process, again I am sure you 
are experienced with as well, that typically goes on with any 
large scale systems integration activity. It is complex.
    Shuttling of itself is an amazing achievement of aerospace 
capacity in to look at how do we look at something that is a 
leap ahead from there ought to be part of our objective and it 
is going to take as long as you suggest through 2012 to really 
be thinking, and it would not be out of the ordinary with any 
other aerospace maturation that I have ever seen or been 
associated with in the Defense Department days.
    So as a consequence how we define this ought to be informed 
by the very important questions you have raised that asks 
what's the objective you are really after and what technologies 
can you employ that will leap ahead.
    Senator Nelson. Let me give you a little of our advice.
    Mr. O'Keefe. Always most appreciative, too, as I had all 
morning for that opportunity. Yes.
    Senator Nelson. I fully appreciate the fact that you cannot 
come to the table knowledgeable about all of this. That is part 
of getting on the job and starting to learn. But here is the 
nub of the coconut. Basically we are going to have a system 
that was going to replace the Space Shuttle. It did not happen. 
But they still have $5 billion in the budget over the next 
several years to develop a technology and, because of that, 
they are still postponing a lot of the upgrades that will 
directly affect the safety of the Space Shuttle, so if we are 
not going to have a replacement vehicle by 2012, which we are 
not, we got to keep the present horse in good condition to get 
us where we need to get. So as I suggested to you last night, 
one of the things that you may look at since this space launch 
initiative is more toward the development of technology, see if 
you can get the Department of Defense as a partner in sharing 
the cost of that, because it would directly affect the 
Department of Defense giving you a little more breathing room 
in the NASA budget to go on and keep doing the Space Shuttle 
safety upgrades, because we just cannot afford to lose that 
vehicle as a reliable assured access to space.
    And then I would ask for you to consider, because this is 
much more technical stuff of RDT&E, research development 
testing and evaluation in NASA's hardware procurements. You 
probably had some experience with this over in your position as 
controller in DoD. Do you have any particular DoD experience, 
by the way, that might be applicable to your ideas about 
procurement reform at NASA?
    Mr. O'Keefe. Yes. Having served at the department during 
the time that Don Atwood was the Deputy Secretary there, his 
primary charge to me and the organization was to develop the 
management review at that time and as a consequence, pursue the 
series of procurement reform initiatives, as well as larger 
management of infrastructure kinds of directives, logistics and 
arrange personnel and other activities that have direct 
applicability in this context.
    Fast-forward in that timeframe you have looked at a range 
of academic pursuit, a whole series of various performed 
initiatives, which approach do you use in those areas, specific 
areas of reform or more generically toward process innovations 
and I have seen, I think, the application of a number of them 
during the course of development of the presence management 
agenda this year.
    So having worked with as a direct context, as well as 
having thought through what some of the implications are, I 
think I would like to take the opportunity to employ best 
practices that fit for this kind of agency and test drive them, 
see how they work, see what we can come up with, but certainly 
is not the lack of familiarity with the variations of which 
approaches to use.
    Senator Nelson. Before we conclude the hearing, I'd like to 
give you an opportunity to lay out for the record what is your 
vision?
    Mr. O'Keefe. I think first and foremost is a 
reinvigoration, reinstilling the entrepreneurial system and 
spirit that is quintessential in definition of what has made 
NASA what it is today and characterizes its extraordinary 
successes, so how to go about establishing that to press the 
edges of what the technology can do, if we are looking at 
things that are again incremental improvements, we wonder why, 
and I am going to think more in terms of how do we do things in 
a leap ahead consideration, because if this institution doesn't 
do it, it likely won't occur in any span of time is going to be 
reasonable.

    And that entrepreneurial spirit is essential, and in its 
earliest phases, instills that sense of entrepreneurship over 
time will be more process-focused, more infrastructure-focused, 
more capability-focused and less about considering things like 
the term sum cost, which in the public environment means we 
have already got money invested, so we better use it until it 
finally dies versus the term sum costs in a business context, 
which means you invested it, it did not work, write it off, do 
not let it be an anchor on the way you do business in the 
future.

    Sum term can be defined different ways. First and foremost 
is vision to reinstill that entrepreneurial spirit so we can 
stretch the envelope in a way that works well for information 
and technology enterprise and science-driven agenda as opposed 
to capability.

    Second, there would be, I think, a focus on prudent 
management principles that can inform and guide and motivate us 
to be selective about what those areas are because you cannot 
do it all, as much as we all would like to see lots of things 
pursued.

    The third element would be to establish and instill a close 
cooperation with all other elements of this incredible Federal 
expanse that we have available in the field of research and 
development to be sure that we maximize that collaboration 
synergy and not duplicate efforts in that regard.

    The fourth element of the vision I think would be also to 
pick up I guess on a very important theme that you have talked 
about a lot in a very passionate and very thoughtful way, which 
is to be mindful constantly of the safety considerations that 
the risks involved in this endeavor, while they are important 
and that it certainly is a noble mission objective, the risks 
nonetheless are higher and have to be considered as paramounts 
of objectives and to take a page from this history.

    Navy nuclear experience that I have a familiarity with by 
virtue of superior parental review, as well as management 
opportunity that I have dealt with which is that you can 
achieve remarkable improvements in the technology and employ 
those improvements while at the same time sustaining enviable 
and perfect safety record. There is a pattern there. There is a 
process set of informed issues that are part of that history 
that we would be extremely well served to take a page from that 
I would like to have the opportunity to instill and I think 
those basic points and elements of the vision would put us in a 
position I think to take advantage of NASA at the crossroads at 
this stage as it redefines and looks at the new mission and 
strategy. I am very excited about this opportunity.

    Senator Nelson. I am grateful that you are excited about 
it, and I would only conclude the hearing by saying that as 
part of that vision, that this one Senator's vision is that we 
are a Nation of explorers and adventurers, and we always had a 
frontier. That frontier used to be westward, now that frontier 
is upward and inward. And if we ever abandon trying to 
challenge that frontier, we will become a second-rate Nation. 
But we won't, because of little agencies like NASA that keep 
that vision alive to fulfill the character of the American 
people as adventurers and explorers.

    And that is my wish for you in saying Godspeed on a very 
important leadership post for the United States of America.

    The hearing is adjourned. We will keep the record open for 
a week for any further comments to be entered by our 
colleagues.

    [The hearing adjourned at 12:50 p.m.]

                            A P P E N D I X

               Prepared Statement of Hon. Sam Brownback, 
                        U.S. Senator from Kansas

    Thank you, Mr. Chairman, for holding this hearing for this very 
important nominee. The constitutional role of advise and consent is one 
of the most important duties we have as a body.
    Today the Senate Commerce Committee reviews the President's 
nomination of Mr. Sean O'Keefe as Administrator of the National 
Aeronautics and Space Administration (NASA). While I have not had the 
opportunity to meet Mr. O'Keefe, I am confident that his past 
experience will serve him well as he embarks upon the important mission 
of leading NASA into the 21st century. Mr. O'Keefe is clearly qualified 
to fulfill the responsibilities of this position; and I look forward to 
him taking office as soon as possible.
    Mr. O'Keefe's experience clearly demonstrates his unique ability to 
live up to the responsibility of his new office. His experience at the 
Office of Management and Budget, as well as his extensive background in 
public service will serve him well in the effort to bring 
responsibility to NASA's budget. NASA has a history of space science 
research aimed at benefiting life on Earth. However, the challenges 
facing the agency today, are more terrestrial. In order to strengthen 
the scientific research at NASA, the financial and budgetary issues 
must be addressed. Not only must they continue with their scientific 
research, but NASA must also do so in a fiscally responsible manner. 
This will be a difficult balancing act which I am confident Mr. 
O'Keefe, a former Deputy Director of the Office of Management and 
Budget, can achieve.
    I look forward to working with Mr. O'Keefe once he is confirmed. As 
I am sure he is aware, NASA is currently in an interesting position to 
engage foreign countries in space science research. As the United 
States continues to pursue the war on terrorism, it is increasingly 
important to foster strong working relationships with our allies. 
Recently, I sent a letter to the President encouraging him to look into 
the work that NASA is pursuing with India, specifically with regard to 
projects that were set aside due to sanctions which have now been 
lifted. I encourage Mr. O'Keefe to pursue new cooperation between NASA 
and India.
    Finally, I would like to point out to the nominee one of his 
predecessor's most important accomplishments. During his tenure as NASA 
Administrator, Dan Goldin joined me in a tour of Kansas. I take this 
opportunity to invite Mr. O'Keefe to follow in the footsteps of his 
predecessor and join me in Kansas.
    Again, I am looking forward to the experience and perspective that 
Mr. O'Keefe will bring to NASA. I congratulate Mr. O'Keefe on his 
nomination and look forward to expeditiously getting him into office.

                               __________
            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina

    We have before us Mr. Sean O'Keefe who is nominated to be the next 
Administrator of the National Aeronautics and Space Administration. The 
President has sent us a fine nominee--Mr. O'Keefe currently serves as 
Deputy Director of the Office of Management and Budget and has 
previously been confirmed by the Senate three times.
    Thank you, Mr. O'Keefe for being willing to take on the challenges 
at NASA--and there are challenges, not the least of which is the 
International Space Station. NASA started the Station in 1984, 
redesigned it in 1993, and is on the verge of redesigning to ``core 
complete'' now. We were promised that the station would cost only $17.4 
billion to develop but now are told that the original design could cost 
as much as $30 billion.
    Earlier this year, the General Accounting Office (GAO) issued a 
report on NASA's fiscal management of the Space Station. In its report, 
GAO stated that NASA was unable to provide obligation-based cost 
information on the Space Station nor was it able to provide support for 
the actual cost of completed Space Station elements and subsystems. The 
question I pose is: If NASA is unable to account for costs that have 
already incurred, how are we to believe its estimates for future costs?
    At the same time, we are being told that to fix the problems, we 
need to eliminate crew and scientific research. So in the end, the 
Station--that was sold to the Congress as a world class research 
facility--will only be able to accomplish 20 hours of research a week. 
So we were sold a bill of goods on which NASA failed to deliver.
    Mr. O'Keefe, as Administrator, I urge you to get NASA back to 
basics. The Space Shuttle itself is a world class research facility, 
and I fully support that program. NASA also has opportunities in Space 
Science and Earth Science to explore our universe and to help us more 
fully understand the Earth.
    I look forward to hearing from the nominee and expect his swift 
confirmation.

                               __________
       Response to Written Questions Submitted by Hon. Trent Lott
                            to Sean O'Keefe

    Question 1. Based on the RFP, NASA's Landsat Data Continuity 
Mission procurement seems headed toward yielding a satellite providing 
minimally useful data for a single customer--the government. This 
result would provide the least value for the most cost to the 
government. As NASA Administrator, will you ensure that the Landsat 
data procurement, as well as future remote sensing procurements, 
maximize the benefits and minimize the cost by sharing the cost and 
risk of the data acquisition with commercial users of remote sensing 
data?
    Answer: It is important to ensure that the Landsat data 
procurement, as well as future remote sensing procurements, seek to 
minimize costs and maximize benefits by partnering with commercial 
providers and uses of remote sensing data and products wherever 
possible. One of the key principles underlying the President's vision 
of government reform is that it be market-based and actively promote 
innovation through competition. Meeting government needs from 
competitive, commercial sources is one of the most effective means of 
accomplishing this. In order for the LDCM to be of greatest value, 
private sector firms must have the full freedom to offer data and data 
products, beyond those needed to fulfill the strict terms of Landsat 
data continuity, to a broader global market.

    Question 2. Do you agree that NASA's remote sensing data needs 
should be fulfilled, to the greatest extent possible, through 
commercial data buys, and not through the construction and operation of 
Government-use only satellites? Wouldn't a FAR Part 12 procurement be 
better suited for such data buys than a Part 15 procurement?
    Answer: Purchase of commercial data can be competitive and 
preferable to the construction and operation of government-only 
satellites where there is a market for such data beyond the government. 
NASA needs to continually engage in extensive dialog with the 
scientific community and industry to determine whether there are 
prospects for U.S.-based commercial data products. In some cases, e.g., 
planetary exploration, the prospects for commercial data products may 
be negligible in the near term due to the capital costs and risks 
involved. In other cases, such as land remote-sensing, there are 
already some commercial data products that are used by NASA. The FAR 
Part 12 and the portion of the Commercial Space Act dealing with remote 
sensing assume the availability of commercial products. I would like to 
ensure that NASA engages with industry in constructive ways to enable 
more, rather than fewer, viable commercial procurements in the future. 
Whether use of FAR Part 12 would be superior to the use of FAR Part 15 
would depend on the specific facts of a particular case.

    Question 3. Many of NASA's facilities associated with the human 
space flight program, including the Stennis Space Center's rocket 
engine test facilities, were established and built 30-40 years ago, and 
are showing their age. While NASA's budget requests have focused on 
direct mission expenditures, its investment in maintaining and updating 
its facilities and equipment has lagged. As NASA Administrator, will 
you ensure that NASA's budget requests include adequate investments in 
maintaining and upgrading its facilities?
    Answer: The high performance that we expect from the human space 
flight programs requires great facilities as well as great people. 
However, currently approximately two-thirds of NASA's annual budget is 
spent on indirect and overhead activities, which include facilities and 
equipment, while only one-third goes to the actual conduct of 
scientific research and technology development. The President's 
Management Agenda calls for greater use of competitive sourcing across 
the Federal Government. As part of this agenda, NASA has undertaken a 
Strategic Requirements Review to assess opportunities for outsourcing, 
streamlining and consolidation. I have not personally gone over the 
details of NASA's review yet, but I expect the review to identify 
actions that can significantly reduce NASA's institutional and overhead 
burden. If such actions are successful, more resources will be 
available to direct toward science, technology and exploration 
activities at NASA and to address NASA's high-priority institutional 
needs like facility modernization. I would ask for your help in getting 
NASA back to basics and rebalancing the ratio of research to 
institution at NASA.

    Question 4. You will need to take full advantage of a range of 
available budgetary tools if you are going to move NASA forward. 
Throughout this past year, you had the opportunity to reacquaint your 
self with how many of these tools, such as advanced procurement, 
forward funding, and advance appropriations, are, or are not, being 
used by various agencies and departments. Do you believe that the use 
of advance procurement, forward funding, or advance appropriations 
would be appropriate for NASA?
    Answer: The Administration supports careful and selective use of 
advance appropriations, advance procurement, and forward funding in 
high-priority areas where such funding mechanisms can provide 
managerial benefits or cost savings. However, the Administration does 
not support widespread use of these funding mechanisms across the 
Federal Government, especially when they are used to circumvent normal 
budgetary controls. For example, for a small number of large capital 
development projects, advance appropriations may be appropriate to give 
incentives to managers to better control costs. Similarly, for certain 
projects, advance procurements may be appropriate if cost savings can 
be achieved. I will need to review NASA's programs to see if any of 
these funding mechanisms would benefit high-priority NASA programs. 
Under any circumstances, great care must be exercised in using any of 
these approaches lest we lose total cost visibility. The recent cost 
overrun revelations on International Space Station serves as a stark 
example of the hazards of incremental funding methods.

    Question 5. We have talked at length about budgetary alternatives 
for other issues of great importance to our Nation. The one in 
particular that I view with the greatest concern is the continued 
decline of our Navy's fleet. Since 1990, we have watched our Navy fleet 
shrink from 550 ships to the 317 ships it has today, and we've been 
told in numerous hearings that we haven't seen the bottom yet. The 
significance of this decline is compounded when one considers how 
critical a capable Navy is to our Nation's ability to respond to 
threats such as those we are currently dealing with in Afghanistan. Can 
budgetary tools such as those we have discussed be used to bolster our 
shrinking Navy fleet? Do you support the use of advanced appropriations 
for large capital projects, including shipbuilding, provided such 
proposals include contractual provisions that yield cost savings for 
such projects?
    Answer: By letter of December 11, to Leader Lott, I described the 
OMB position on the applicability of advance appropriation principles 
for Navy shipbuilding. I'd be happy to elaborate on these comments 
should Senator Lott desire.

                               __________
      Response to Written Questions Submitted by Hon. John McCain
                            to Sean O'Keefe

    Question 1.  One of the issues highlighted in the Young Report was 
that the final Station cost estimate at completion has not been a 
management criterion within NASA. The Station cap that the Congress 
established was on the overall development costs for the Station along 
with the use of the Space Shuttle. Can you elaborate on this finding 
and comment as how you would propose to deal with the issue?
    Answer: I believe the Independent Cost and Management Evaluation 
(IMCE) task force assessment is accurate in its finding that the strong 
focus of the ISS management on living within annual costs was a major 
factor in the development of the total ISS cost problem revealed in 
early 2001. There are a number of other contributing factors, however, 
that must also be addressed. I understand that NASA is now preparing a 
proposed set of management and accounting changes that address the IMCE 
findings. If confirmed, I will, of course, examine those proposals and 
the assumptions on which future cost estimates are based. In addition, 
it would be my intention to initiate needed changes in fiscal 
management for ISS--and all other NASA programs--to improve cost 
estimation, tracking and oversight procedures based on a total cost 
concept which will better account for both current and out-year 
expenditures. (See also my response to question 2, below.)

    Question 2. The Young Report stated that a technical baseline must 
be developed that can be used as the basis for a formal cost estimate. 
It recommended using the Department of Defense cost assessment approach 
as model and develop a full Space Station cost estimate. Do you agree 
with using the Department of Defense cost assessment approach?
    Answer: I believe that NASA has a good deal more to learn from the 
DOD cost assessment approach. That will be among several tools that I 
intend to bring to bear in reforming NASA's cost estimating capability.

    Question 3. The Young Report stated that financial and project 
control functions needs to be strengthened significantly in the Space 
Station program office and NASA Headquarters. What are your thoughts on 
the current control systems and how would you propose to strengthen 
them?
    Answer: I believe the IMCE findings about financial and project 
control functions are among the most important in the report. 
Strengthening these systems is a very high priority, and I will 
initiate a systematic review of NASA's current practices with a view to 
identifying and implementing necessary changes.

    Question 4.  I recognize that the Strategic Resources Review is 
still underway. However, that review may recommend some significant 
changes to the NASA centers. Are you prepared to implement the 
recommendations from the review process?
    Answer: NASA's Strategic Resources Review is a key element of the 
Administration's management reform agenda. By reducing NASA's 
institutional burden and making greater use of capabilities in academia 
and industry, NASA intends to: promote innovation; open Government 
activities to competition; improve the depth and quality of 
R&Dcapabilities that NASA can call on; and increase NASA's 
responsiveness to future directions in science, technology and 
exploration. The SRR process is a very positive and necessary exercise 
for NASA, and I look forward to reviewing the recommendations of the 
SRR. Implementing significant changes in the activities and programs at 
NASA's Centers will be a difficult and challenging task, which will 
require close coordination and cooperation with the Congress to 
implement. It will be my intent to maintain a focus on the larger issue 
of a strong and vibrant national space program rather than the 
preservation of any specific localized status quo.

    Question 5.  Given all the discussion on research at NASA, I also 
want to ensure that the results of this research reach those who need 
it. NASA recently put together a draft commercialization plan for the 
International Space Station. We expressed some reservations with that 
plan.
    (a) What are your thoughts on commercialization at NASA?
    (b) Do you believe that NASA does a good job of working with 
American companies to find opportunities for the commercialization of 
space?
    (c) The Department of Commerce has an Office of Space 
Commercialization. How do you believe that NASA should work with this 
office?
    Answer: I am convinced that NASA's commercialization efforts can be 
expanded, by ensuring that: key technologies developed using American 
taxpayer dollars are made available to U.S. industry for commercial 
application; and NASA buys commercially available products and services 
whenever possible instead of replicating or maintaining industry 
capabilities at its field centers. As I stated during the Committee's 
hearing, one of my highest priority objectives is to regain a more 
entrepreneurial spirit within NASA, to seek immediate opportunities for 
transferring technology both into and out of NASA, as well as pursuing 
less obvious opportunities for commercialization. I expect that NASA 
will take advantage of all resources and knowledge throughout the 
Federal Government, including the Department of Commerce. I am prepared 
to work closely with you and the Committee to address your concerns and 
establish a unified approach to moving forward in this critically 
important area.

    Question 6.  International cooperation is the keystone of NASA's 
most ambitious space projects. The International Space Station and Mars 
exploration are but two examples. These and any future programs can 
only succeed if all involved governments adhere to their commitments. 
How do you plan to ensure that US obligations to these international 
partners are fully honored?
    Answer: The United States, of course, takes its international 
commitments and obligations seriously and I believe they are an 
important and necessary feature of our nation's space program. At the 
same time, inherent in all international agreements is the 
determination that adherence to its terms is also in the best interest 
of each of the signatory nations. I agree that the ISS agreements, 
which were initiated by the United States, continue to be important and 
necessary to the success of the ISS. I view my task as implementing the 
kinds of efficiencies and management changes at NASA that ensures that 
the U.S. can meet both its international commitments and its 
responsibility to the American taxpayer.

    Question 7.  In light of the high level of retirement eligibility 
for NASA's civil service employees, what steps will you take to ensure 
that the agency is properly staffed?
    Answer: NASA and OMB have conducted a joint workforce review to 
identify areas of concern in maintaining access to critical skills and 
human resources. A number of steps have been identified to address 
these concerns, which are currently being integrated as part of NASA's 
Strategic Resources Review. I view this as a very high priority for my 
attention as Administrator, if I am confirmed by the Senate. As these 
proposals mature I will consult with the Committees of the Congress to 
identify and chart a course which provides legislative authority where 
needed. Additionally, I will seek the Congress's counsel and support 
for administrative actions that are suggested to address the workforce 
challenges. In this spirit, Congress could enact the President's 
proposed ``Managerial Flexibilities Act'' which incorporates several 
personnel management authorities of great value to NASA. Creative 
application of these new authorities could help address the critical 
human talent challenges.

    Question 8.  Many major management decisions at NASA appear to be 
made without the benefit of establishing a program baseline, obtaining 
good cost estimates, and accomplishing defensible cost-benefit 
analyses. How would you change the way major program decisions are 
analyzed and made at NASA (and enforcement of the changes)?
    Answer: Your characterization of the situation is accurate, and 
represents a clear statement of some of the major challenges facing 
NASA at this time. It is essential to establish and implement an 
integrated financial management plan and strong independent cost 
analysis functions to address these deficiencies and provide the means 
of oversight, verification, accountability and enforcement. I view the 
Office of the Chief Financial Officer as critical to this process and 
will work aggressively to fully establish and empower that function 
within the NASA structure. I will require strict management 
accountability at all levels and, where necessary, employ independent 
assessments and validations of program budgets and plans.

    Question 9.  NASA's Independent Program Assessment Office (IPAO) is 
currently located at NASA Langley. It was created to conduct 
independent evaluations of NASA programs and projects in order to keep 
senior management informed about whether programs are on schedule and 
within budget. The NASA Inspector General, building on earlier GAO 
reports and the 1990 Augustine Commission Report, has repeatedly 
recommended that the IPAO be made part of NASA HQ, and that it be used 
more proactively to provide senior NASA management with independent 
estimates of program cost and risk. Would you consider enhancing the 
IPAO's role and stature and locating it (at least organizationally) at 
NASA HQ?
    Answer: If confirmed, I will carefully review the recommendations 
regarding the role and structure of the IPAO. As indicated previously, 
I believe a strong independent assessment capability, both within NASA 
and outside of NASA, is essential to identifying and resolving NASA's 
cost and management challenges.

    Question 10.  The Young Report also recommended that NASA should 
develop an independent cost estimate program for the International 
Space Station that should be started immediately for FY03 and be 
updated biennially by a group outside of the ISS program office.
    (a) Do you intend to follow this recommendation?
    (b) Do you believe that this independent cost estimate can be 
completed by the FY03 budget submission?
    Answer: As I stated during the hearing on my nomination, with 
regard to the readiness of the independent cost estimate, it is 
scheduled to be completed by September 2002, in time for the enactment 
of the fiscal year 2003 appropriation and fiscal year 2004 budget 
formulation.

    Question 11.  NASA's financial management system is an infamous 
mess. As Deputy Director of OMB, you testified that NASA had you 
testify about a $4 billion Space Station cost overrun based on a 
``conservative'' estimate, and then you found out ``within days'' that 
the actual overrun was in fact $4.8 billion. How do you intend to do 
reform NASA's financial system to better track costs, obtain better and 
timely cost information, and improve overall financial management?
    Answer: I was deeply troubled by the pace at which the projected 
cost increases grew early in the year, and the fact that such a serious 
increase could have been identified so late. In my responses to 
questions 1-3, 6, and 9-10, above, I have indicated some of the early 
steps I intend to take, if confirmed, to address this most serious 
issue.

    Question 12.  On November 23, the Chinese government announced that 
it will start manned space flights missions in 2005, with the objective 
of reaching the Moon.
    (a) How should NASA react to an energized Chinese space program?
    (b) What strategic implications might this announcement have for 
U.S. national security?
    Answer: NASA is continuing to work closely with the Administration 
concerning U.S. policy with regard to potential civil, space-related 
cooperation with China. The U.S. Government position remains that 
adherence to the MTCR and export controls is a prerequisite to 
increased civil space cooperation. Due to these continuing concerns, at 
the present time, NASA has very limited cooperation with China. Should 
enhanced cooperation become possible, NASA's primary interest would be 
to cooperate with China in the field of Earth Science. Potential future 
cooperation in Earth science would include low technology environmental 
studies to examine the oceans, air quality and land cover and land use. 
Successful implementation of such cooperation could potentially serve 
as a basis for future cooperation in other areas of mutual interest.
    With regard to national security implications, I would defer to the 
National Security Council and the Department of Defense to evaluate, 
monitor and address those issues.

    Question 13.  According to a November 18, 2001, article in Florida 
Today, NASA's Consolidated Space Operations Contract has hit a $500 
million shortfall. The contract with Lockheed Martin was supposed to 
save NASA $1.4 billion over 10 years. Now there has been some 
discussion of cutting NASA's Deep Space programs and even its mission 
to Mars in order to make up for this shortfall.
    (a) What can be done to resolve this problem?
    (b) Do you intend to cut any Deep Space programs in order to make 
up for this shortfall?
    Answer: I am aware of the concerns with NASA's space operations 
consolidation efforts and very concerned that it may not be meeting the 
expectations for savings that were intended. If confirmed, I will 
carefully examine this situation, both with regard to the specifics of 
the contract performance and in the context of the broader issues of 
management and cost control discussed in my previous responses.

    Question 14.  An editorial in the December 3 issue of Space News 
chastised Congress for shirking its responsibilities ``by approving a 
2002 budget for NASA loaded down with too many pet projects designed to 
benefit the constituents of the Senators and Representatives most able 
to influence the budget.'' The editorial calculates that the 2002 NASA 
appropriations bill included 136 earmarks costing $533 million, an 
increase of nearly 45 percent over last year. Could you please explain 
how this type of Congressional earmarking affects NASA's scientific and 
exploratory missions?
    Answer: The Administration has expressed serious concerns about the 
dramatic growth in recent years in the number and cost of earmarks in 
NASA's budget. Unrequested projects have grown from six projects with a 
total cost of $74 million in fiscal year 1997 to 136 projects with a 
total cost of $533 million in fiscal year 2002. This practice has the 
effect of exacerbating funding demands for other authorized activities, 
as well as diminishing the NASA's ability to make resource decisions 
and allocations across its programs. Especially troublesome are 
earmarks that restore funding to projects that have been canceled due 
to dramatic cost growth, which greatly hinders NASA's ability to 
control costs and make sound management decisions. This also has an 
inevitable chilling effect on agency initiative and is especially 
detrimental to NASA, where innovation and initiative in exploration and 
advanced research and technology have been hallmarks of its past 
progress. This is a serious issue that I believe must be addressed in a 
cooperative manner with the Congress.

    Question 15.  Background: NASA has experienced significant cost 
growth problems in many of its major programs, including the Space 
Station and the second-generation reusable launch vehicle 
demonstration. Many of the problems could be attributed to poor 
planning and program management. NASA has now initiated work on its 
Space Launch Initiative, which aims to demonstrate technologies leading 
to replacement of the Space Shuttle. The program is currently estimated 
to cost about $4.9 billion through fiscal year 2006.
    (a) What role do you see the private sector having in the Space 
Launch Initiative?
    (b) In light of NASA's problems in controlling costs on previous 
programs, what will you do to ensure that the agency adequately defines 
requirements, prepares accurate program cost estimates and manages the 
program within established cost guidelines?
    I believe the private sector can and should play the fundamental 
role in pursuing the Space Launch Initiative (SLI). This program has 
been designed with the lessons of past spacecraft and launch system 
development activities in mind and with the goal of lowering cost, 
improving reliability, and buying launch services from commercial 
launch providers for all of NASA's launch needs, including human space 
flight.
    Although promising steps have been taken to ensure strong 
requirements and cost analysis on SLI, the SLI program can also be the 
beneficiary of the cost and management reforms growing out of the 
current effort to address ISS and Space Shuttle cost and management 
challenges, as discussed in previous responses.

    Question 16. This summer the Committee was informed of a $218 
million gap in funding for the Space Shuttle program. Under Director 
Goldin, NASA had considered canceling and deferring safety upgrades to 
the Space Shuttle fleet.
    (a) Should NASA delay or cancel safety upgrades to the Space 
Shuttle in order to mitigate this funding shortfall?
    (b) What factors will you consider as you decide which upgrades to 
cancel or defer?
    Answer: I believe that Shuttle upgrades that provide worthwhile 
safety improvements and can be implemented in a timely way should be 
continued. Efforts to directly improve safety in Shuttle operations 
should be continued, by addressing concerns in the ground 
infrastructure supporting operations as well as process improvements, 
investments in personnel and potential safety enhancements to flight 
systems. In an era of constrained resources, our first priority must be 
to sustain safe operations. The selection of, and funding allocated to, 
upgrades must not result in accepting risks in operational safety or 
foregoing other investments that yield greater safety gains.

    Question 17. This Committee is concerned that not a great enough 
priority is put on the maintenance of infrastructure at NASA Centers. 
At a hearing before this Committee in September, witnesses testified 
that improper infrastructure maintenance was adversely affecting safety 
and performance of the Space Shuttle. Will infrastructure maintenance 
be a major focus of NASA under your tenure?
    Answer: As a general rule, if confirmed, I will seek to spend less 
agency resources on infrastructure and more on science and technology. 
That said, I believe it is vital to preserve the Nation's investment in 
important national assets under NASA's stewardship, and doing so will 
be an important priority for me, if confirmed. Additional support for 
infrastructure maintenance is being considered in the fiscal year 2003 
budget formulation. Any additional investments in infrastructure 
maintenance will be made in the context of the ongoing Strategic 
Resources Review, and will be consistent with future decisions on space 
launch.

    Question 18.  One general public complaint about NASA is that its 
``glory days'' of discovery are over. The Apollo landings of the late 
1960s and 1970s are considered the apex of NASA's achievements in 
exploration. Do you believe that NASA should develop a new bold 
strategy for manned space exploration that will re-kindle the public's 
interest?
    Answer: I share the enthusiasm for exploration and discovery, and I 
believe that NASA can, and should be in the forefront of this nation's 
future space exploration. But NASA can only do so if it is able to 
deliver on its current programs and commitments. The immediate and 
sustained focus must be on demonstrating convincingly that NASA has the 
ability to effectively and efficiently meets its current challenges. 
From that success will emerge a coherent vision characterized by 
science-driven strategic objectives rather than events.

    Question 19. NASA currently has planned an ambitious schedule to 
continue greater exploration of the planet Mars, including missions 
every other year culminating in a mission that will return to the Earth 
with Mars soil samples in 2011 or 2014.
    (a) Do you believe that this program is an important asset to 
NASA's science mission?
    (b) What management changes should be pursued to prevent the 
problems which occurred with the Mars Climate Orbiter and Mars Polar 
Lander missions?
    Answer: Given recent important discoveries regarding the potential 
for life at Mars and elsewhere in the solar system, NASA's Mars 
Exploration Program is a clear priority. The success of the current 
Mars Odyssey mission reflects well on changes that have already been 
implemented following the failures of the Mars Climate Orbiter and 
Polar Lander missions. If confirmed, I will ensure the continued 
implementation of the management reforms in this area, as well as the 
application of overall cost and management reforms to ensure continued 
success and accountability in these important missions.

    Question 20.  Background: GAO has reported that NASA's contract 
management is a continuing area of high risk, because the agency lacks 
effective systems and processes for overseeing contractor activities. 
For example, in a recently issued report on International Space Station 
cost limits, GAO found that NASA was unable to provide auditors with 
detailed, transaction-based data to support the dollars obligated for 
the Space Station, and did not have support for the actual cost of 
completed Space Station components--either in total or by subsystem or 
elements. As a result NASA is not able to re-examine its cost estimates 
for validity once costs have been realized. A key effort to address 
these weaknesses is the implementation of a new integrated financial 
management system. Implementation of the system and its integration 
with full cost accounting have been delayed for several years, however, 
because of significant development and implementation problems. NASA 
has started its third attempt at developing such a system, after having 
spent $180 million over 12 years on two failed efforts. Until the new 
system is operational, performance assessments relying on cost data may 
be incomplete.
    (a) After two failed attempts, what is your expectation for fully 
implementing the Integrated Financial Management System?
    (b) What type of management attention would you provide to this 
effort?
    (c) Will NASA's new financial management system fundamentally 
change the way in which NASA tracks and uses cost information for 
activities such as estimating and controlling costs, performance 
measurement and making economic tradeoff decisions?
    (d) What other steps would you take to enhance oversight of 
contract management activities?
    Answer: I believe that NASA can enhance the probability of 
successfully completing its missions and mandates on schedule and 
within budget by establishing an effective integrated financial 
management system. Such a system can and will be effectively 
implemented. My previous experience and background has engendered in me 
an unyielding commitment to meet cost and management challenges of the 
kind described in the GAO report, and it will be my highest priority if 
confirmed as NASA Administrator.
    As indicated in previous responses, it would be my intention to 
fully empower and utilize the office of the Chief Financial Officer to 
improve NASA's oversight over contract cost and schedule management 
that underpins budget formulation activities. In addition, I will, if 
confirmed, employ enhanced independent assessment capabilities to 
ensure compliance, accountability and accuracy in program estimation 
and management.

    Question 21.  Background: In the early 1990s, NASA's Administrator 
challenged the agency to design and implement projects faster, better, 
and cheaper. The goal was to shorten program development times, reduce 
costs, and increase scientific return by flying more and smaller 
missions in less time. Although NASA maintained a high success rate 
under this approach, a few significant mission failures occurred--
particularly the loss of the Mars Polar Lander and Climate Orbiter 
spacecraft. NASA investigations of these failures as well as other 
program reviews raised concern that lessons from past experiences were 
not being applied to current projects and programs.
    (a) Do you envision continuing the faster, better, cheaper approach 
in light of past problems?
    (b) What would you do differently to avoid failures like the two 
Mars probes?
    (c) What steps would you take to ensure that effective lessons 
learning and knowledge sharing take place across the agency?
    (d) Do you see a need for more integration of NASA's Centers as a 
means to foster knowledge sharing?
    (e) What initiatives do you think are needed to address cultural 
barriers that may inhibit collaboration and knowledge sharing among 
agency staff?
    (f) What would you do to retain the institutional knowledge gained 
from past mistakes, given that NASA anticipates significant retirements 
in the next 3 to 5 years?
    Answer: I believe ``Faster'' ``Better'' and ``Cheaper'' are 
appropriate metrics in assessing the merits of NASA missions. However, 
these metrics must also be balanced against mission risk. For example, 
compressed schedules and reduced costs can increase risk to 
unacceptable levels if not carefully measured and monitored. 
Accountability for cost, schedule and performance commitments, 
reliability and mission success--as ensured by having a clear picture 
of risk--are goals I would focus on, if confirmed as NASA 
Administrator. Among the early activities I would undertake as 
Administrator would be an effort to become fully informed of the 
lessons learned from recent mission successes and failures and examine 
the means by which those lessons are communicated and applied to 
programs across the Agency. I firmly believe that there should be one 
NASA, with consistent principles and appropriate balance of risks 
across the separate programs and Centers, and that lessons learned in 
one area are applied wherever else in the Agency they may be 
appropriate. It would be my intention to examine new methods of 
ensuring the ``cross-fertilization'' of ideas and experience across the 
agency and undertake such steps as staff-sharing and exchanging as a 
means of enhancing cooperation and communications across Enterprises 
and Centers. I further believe that an aggressive effort of successor 
planning and mentoring can help ensure that knowledge and experience is 
more institutionalized than personalized and available to succeeding 
generations of leadership.

    Question 22. It was recently announced that the Consolidation Space 
Operations Contract (CSOC) was running about $500 million short of 
expected savings. Can you comment on how you propose to deal with this 
shortfall?
    Answer: (See response to question 13, above.)

    Question 23.  If there will be less time for science on the ISS, 
how do you plan to modify the occupancy plan with respect to the 
international partners?
    Answer: This is an area of obvious concern to our international 
partners and one that I would expect to address early on if confirmed 
as Administrator. I believe there is time to reach a mutually 
acceptable and beneficial solution with our partners on this issue. The 
current situation does not significantly change the previous occupancy 
plan until 2006. It would be my intention to get acquainted with our 
partners' representatives and begin the dialog necessary to reach an 
accommodation of the interests and capabilities of all members of the 
international ISS partnership.

    Question 24.  If access to the ISS will be more limited than set 
forth in current international agreements, what plans are there for 
modifying scheduled visits for international partners?
    Answer: See my answer to question 23, above.

    Question 25.  If it is the Administration policy, and the widely-
held view in Congress, that the severe funding challenges in the Space 
Station program should not affect programs outside the Human Space 
Flight area, then do you believe this view can be maintained given the 
current fiscal realities?
    Answer: I believe that both the ISS and Space Shuttle funding 
challenges can and should be addressed solely within the Human Space 
Flight area. NASA must maintain a balance among its respective program 
areas, and a lack of discipline or management failure in one area must 
not be allowed to negatively impact another.

    Question 26.  On the Mars program, there are international 
commitments for the joint exploration of Mars with partners, namely 
France and Italy. Last month, NASA confirmed the terms of this 
exploration with France. Can you comment on the likelihood that these 
agreements will be maintained?
    Answer: I do not yet have sufficient information regarding the 
specifics of these commitments or the prospects for the specific 
program elements to which they refer. As a matter of principle, I feel 
strongly that the U.S. should maintain its international commitments, 
but also believe that such commitments should be made in a manner which 
supports the best interests of the United States and a realistic 
assessment of the U.S. capability to meet its obligations under any 
agreement.

    Question 27.  What is your position on the Mars exploration program 
beyond 2007, as these missions will require extensive planning and 
financial obligations by each agency involved?
    Answer: Planning for Mars missions in the next decade is an 
important activity to understand what key investments in technology 
should be made today to maintain a wide set of options. However, given 
the uncertainty as to the scientific discoveries and technological 
advancements we will obtain from Mars missions and investments this 
decade, Mars planning for the next decade cannot be static and should 
consider a wide range of potential scientific strategies and mission 
options.

    Question 28.  Some recommendations to NASA from the General 
Accounting Office, the NASA Office of Inspector General, various NASA 
Advisory Council organizations, the Aerospace Safety Advisory Panel, 
and special commissions are agreed to but never implemented. What steps 
do you intend to take to ensure that agreed upon recommendations and 
action plans are properly tracked and implemented?
    Answer: As part of the cost estimation and management reforms 
described in previous responses, the maintenance and tracking of 
externally developed findings and recommendations is essential. If 
confirmed, I would take steps to emphasize the necessity of utilizing 
the body of knowledge represented by the product of these reviews and 
couple that with assigning clear responsibility for the maintenance and 
dissemination of the material produced as the result of the reviews 
conducted by such reviewing entities.

    Question 29.  The California Institute of Technology (Caltech) has 
operated NASA's Jet Propulsion Laboratory as the sole-source contractor 
since 1959. Would you consider opening some or all of the contract to 
competition when it comes up for renewal in 2003?''
    Answer: I am not yet conversant with the specific terms of the 
Caltech contract, and cannot respond with specific comment. As a matter 
of principle, I am strongly in favor of competition as a means of 
minimizing cost to the government and would, if confirmed, carefully 
consider the potential for competitive offering of portions of that, or 
any other, contract.

    Question 30.  What are your views on contracting out and 
commercializing additional functions at NASA in light of the present 
high level of contracted activities in NASA, and the difficulties NASA 
has experienced in some of its high-profile outsourcing efforts (e.g., 
SFOC, CSOC)?
    Answer: The Administration position is clear regarding the need to 
maximize the opportunity for greater competitive sourcing and 
partnering efforts in the management of NASA programs, and I am a 
strong advocate for that position. What is essential is to identify the 
causal factors of the difficulties in previous and on-going efforts and 
to implement refinements and improvements to the process that can guard 
against those difficulties. I am confident that means can be found to 
enhance the effectiveness of competitive sourcing for those activities, 
and if confirmed would aggressively pursue those means.

    Question 31.  In recent years, the Agency has at times (e.g., the 
proposed launch of the X-37 on the Shuttle) taken a very broad view of 
the Commercial Space Act of 1998's mandate that NASA fly payloads on 
commercial launch vehicles unless the Shuttle's unique capabilities are 
required. Under your watch, what steps would you take to uphold the 
Commercial Space Act's mandate?
    Answer: I support the intent of the Commercial Space Act to expand 
the use of commercial launch vehicles and capabilities. Given the 
anticipated changes in Space Station assembly and utilization and, 
potentially, a concomitant reduction in the Space Shuttle annual flight 
rate, as has been proposed by the IMCE, I believe the goal outlined in 
the Act becomes even more important. If confirmed, I would undertake 
steps to make the maximum effective use of the Space Shuttle's unique 
capabilities. I believe a significant outcome of that effort will be an 
increasing focus on the use of commercial launch capabilities.

    Question 32.  NASA has outsourced the ownership and management of 
its desktop computers. As a result, the Agency lacks insight into the 
security of its information. How do you intend to balance the goals of 
outsourcing in the IT arena with the need to protect NASA systems and 
data?
    Answer: Activities underway by the NASA Office of Inspector General 
and the new Office of Security are addressing the IT security concerns 
and requirements. I believe it will be possible to identify and 
effectively implement the means of maintaining adequate security 
protection and realizing the savings inherent in outsourcing that 
portion of NASA's IT environment that is appropriately managed through 
such an outsourcing arrangement. If confirmed, I will actively monitor 
that effort to ensure that both goals are being accomplished.

    Question 33.  The Japanese government has announced its intent to 
become a world leader in the aerospace sector, and is in final testing 
of its H-2A rocket. How a great a competitive challenge is Japan to the 
U.S. space launch industry?
    Answer: The Japanese have an efficient national space agency and a 
strong commitment to the development of their space launch industry. To 
the extent they are willing to provide governmental assistance to their 
private industrial base, they have the potential to be a serious 
competitor to the U.S. for launches within the payload capability of 
their launch systems. The U.S. commercial launch industry, in 
partnership with NASA and other Federal licensing and regulatory 
entities, should continue to carefully monitor the potential 
competitive situation in the worldwide launch services industry. To the 
extent NASA can continue in its privatization efforts and new launch 
vehicle and technology development efforts, such as the Space Launch 
Initiative, the agency can make an important contribution to enhancing 
the U.S. competitive posture within that global industry.

    Question 34.  There are some that say sufficient technology exists 
to support cheaper access to space. NASA needs can be met by use of 
current technology to build a low cost 2-stage reusable launch vehicle. 
If this is indeed the case, what are the merits of the Space Launch 
Initiative (SLI)? What are the impacts of SLI on small commercial 
startup launch companies?
    Answer: The SLI program, as currently constituted, is intended to 
address precisely the question of risk reduction by developing and 
demonstrating technological and systems integration capability. It is 
the purpose of the program to validate technologies and systems design 
concepts that can be eventually applied to advanced vehicle design and 
development. Once risks are at acceptable levels and costs are well 
understood, new systems will be developed to launch both humans and 
cargo to and from space. Some small commercial launch companies are 
already participating in the first round of SLI awardees, and it is 
anticipated that the number will grow as the program moves forward. It 
can also be expected that successful technology developments within the 
SLI program will be available to enable small startup launch companies 
an opportunity to participate in the development of alternative low-
cost launch capabilities.

</pre></body></html>
